<html>
<title> - EDUCATION REFORMS: DISCUSSING THE VALUE OF ALTERNATIVE TEACHER CERTIFICATION PROGRAMS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
               EDUCATION REFORMS: DISCUSSING THE VALUE OF
               ALTERNATIVE TEACHER CERTIFICATION PROGRAMS

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                   ELEMENTARY AND SECONDARY EDUCATION

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE

                     U.S. House of Representatives

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, JULY 24, 2012

                               __________

                           Serial No. 112-66

                               __________

  Printed for the use of the Committee on Education and the Workforce


                   Available via the World Wide Web:
      http://www.gpoaccess.gov/congress/house/education/index.html
                                   or
            Committee address: http://edworkforce.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
75-109                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bed9ced1feddcbcdcad6dbd2ce90ddd1d390">[email&#160;protected]</a>  

                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Thomas E. Petri, Wisconsin           George Miller, California,
Howard P. ``Buck'' McKeon,             Senior Democratic Member
    California                       Dale E. Kildee, Michigan
Judy Biggert, Illinois               Robert E. Andrews, New Jersey
Todd Russell Platts, Pennsylvania    Robert C. ``Bobby'' Scott, 
Joe Wilson, South Carolina               Virginia
Virginia Foxx, North Carolina        Lynn C. Woolsey, California
Bob Goodlatte, Virginia              Ruben Hinojosa, Texas
Duncan Hunter, California            Carolyn McCarthy, New York
David P. Roe, Tennessee              John F. Tierney, Massachusetts
Glenn Thompson, Pennsylvania         Dennis J. Kucinich, Ohio
Tim Walberg, Michigan                Rush D. Holt, New Jersey
Scott DesJarlais, Tennessee          Susan A. Davis, California
Richard L. Hanna, New York           Raul M. Grijalva, Arizona
Todd Rokita, Indiana                 Timothy H. Bishop, New York
Larry Bucshon, Indiana               David Loebsack, Iowa
Trey Gowdy, South Carolina           Mazie K. Hirono, Hawaii
Lou Barletta, Pennsylvania           Jason Altmire, Pennsylvania
Kristi L. Noem, South Dakota         Marcia L. Fudge, Ohio
Martha Roby, Alabama
Joseph J. Heck, Nevada
Dennis A. Ross, Florida
Mike Kelly, Pennsylvania

                      Barrett Karr, Staff Director
                 Jody Calemine, Minority Staff Director

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                   ELEMENTARY AND SECONDARY EDUCATION

                  DUNCAN HUNTER, California, Chairman

John Kline, Minnesota                Dale E. Kildee, Michigan
Thomas E. Petri, Wisconsin             Ranking Minority Member
Judy Biggert, Illinois               Robert C. ``Bobby'' Scott, 
Todd Russell Platts, Pennsylvania        Virginia
Virginia Foxx, North Carolina        Carolyn McCarthy, New York
Bob Goodlatte, Virginia              Rush D. Holt, New Jersey
Richard L. Hanna, New York           Susan A. Davis, California
Lou Barletta, Pennsylvania           Raul M. Grijalva, Arizona
Kristi L. Noem, South Dakota         Mazie K. Hirono, Hawaii
Martha Roby, Alabama                 Lynn C. Woolsey, California
Mike Kelly, Pennsylvania             Marcia L. Fudge, Ohio


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on July 24, 2012....................................     1

Statement of Members:
    Hunter, Hon. Duncan, Chairman, Subcommittee on Early 
      Childhood, Elementary and Secondary Education..............     1
        Prepared statement of....................................     3
    Kildee, Hon. Dale E., ranking member, Subcommittee on Early 
      Childhood, Elementary and Secondary Education..............     3
        Prepared statement of....................................     4

Statement of Witnesses:
    Andrew, Seth, founder and superintendent, Democracy Prep 
      Public Schools.............................................    23
        Prepared statement of....................................    26
    Banta, Maura, director of citizenship initiatives in 
      education, IBM Corp........................................     9
        Prepared statement of....................................    11
    Brown, Cynthia G., vice president for education policy, 
      Center for American Progress Action Fund...................    16
        Prepared statement of....................................    18
    Mulhern, Jennifer, vice president, TNTP......................     5
        Prepared statement of....................................     7

Additional Submissions:
    Mr. Andrew's response to questions submitted for the record..    61
    Chairman Hunter:
        Questions submitted to Mr. Andrew........................    60
        Questions submitted to Ms. Mulhern.......................    64
    Ms. Mulhern's response to questions submitted for the record.    65


                   EDUCATION REFORMS: DISCUSSING THE
                      VALUE OF ALTERNATIVE TEACHER
                         CERTIFICATION PROGRAMS

                              ----------                              


                         Tuesday, July 24, 2012

                     U.S. House of Representatives

                    Subcommittee on Early Childhood,

                   Elementary and Secondary Education

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 10:01 a.m., in 
room 2175, Rayburn House Office Building, Hon. Duncan Hunter 
[chairman of the subcommittee] presiding.
    Present: Representatives Hunter, Kline, Petri, Biggert, 
Foxx, Noem, Roby, Kildee, Scott, Davis, and Woolsey.
    Staff present: Katherine Bathgate, Deputy Press Secretary; 
Adam Bennot, Press Assistant; James Bergeron, Director of 
Education and Human Services Policy; Casey Buboltz, Coalitions 
and Member Services Coordinator; Heather Couri, Deputy Director 
of Education and Human Services Policy; Lindsay Fryer, 
Professional Staff Member; Krisann Pearce, General Counsel; Dan 
Shorts, Legislative Assistant; Alex Sollberger, Communications 
Director; Linda Stevens, Chief Clerk/Assistant to the General 
Counsel; Alissa Strawcutter, Deputy Clerk; Brad Thomas, Senior 
Education Policy Advisor; Tylease Alli, Minority Clerk; Meg 
Benner, Minority Education Policy Advisor; Kelly Broughan, 
Minority Staff Assistant; Jody Calemine, Minority Staff 
Director; Jamie Fasteau, Minority Deputy Director of Education 
Policy; Ruth Friedman, Minority Director of Education Policy; 
Kara Marchione, Minority Senior Education Policy Advisor; Megan 
O'Reilly, Minority General Counsel; and Julie Peller, Minority 
Deputy Staff Director.
    Chairman Hunter. Good morning. A quorum being present, the 
subcommittee will come to order. Welcome to our subcommittee 
hearing. I would like to thank our witnesses for joining us. We 
appreciate the opportunity to get your perspectives on the 
benefits of alternative teacher education--excuse me, 
certification programs.
    Studies have repeatedly shown teacher quality to be one of 
the most influential factors on student academic achievement. 
As a father of three young children, I have seen first-hand how 
positively kids respond when inspired and motivated by an 
exceptional teacher. They work harder, enjoy learning and seem 
more fulfilled after a challenging day in the classroom.
    Today we are here to discuss teachers who obtain their 
certification through alternative routes. Alternative 
certification programs allow individuals who already have a 
post-secondary degree to obtain certification to teach without 
having to go back to college to complete a traditional teacher 
education program. As a result, aspiring teachers can begin 
working with students faster and more efficiently.
    The number of educators who obtain their certification 
through alternate routes has increased significantly over the 
years. According to the National Center for Policy Analysis, 
from 1996 to 2006 the number of alternative certifications 
issued nationwide increased from 4,000 to 60,000. Now 
approximately one third of the new teachers hired annually 
complete alternative certification programs.
    Helping schools recruit, hire and obtain more effective 
teachers is a top priority in the Republican effort to reform 
elementary and secondary education law currently known as No 
Child Left Behind. Earlier this year the committee approved two 
pieces of legislation that would help schools identify the most 
talented teachers.
    A key pillar in the legislation is a provision to eliminate 
the outdated and widely criticized highly qualified teacher 
requirements. Instead of focusing on an educator's ability to 
keep students engaged, motivated and learning, these 
prescriptive requirements place undue emphasis on credentials 
and tenure, ultimately restricting schools' ability to hire the 
best teachers.
    Unless we repeal the highly qualified teachers' 
requirements, however, our neediest schools will always be 
prevented from hiring teachers certified through alternative 
pathways. As the president so often reminds us, this nation 
suffers from a shortage of good teachers. All the more reason 
we should continue to support policies that allow educators 
certified through alternative routes to stay in the classroom.
    Rigorous studies have consistently shown alternatively 
certified teachers are equally as effective, if not more so, 
than traditionally certified educators. For example, a 2009 
national randomized study commissioned by the Department of 
Education found that there is no statistically significant 
difference in performance between the students taught by 
teachers certified through alternative routes. Similarly, an 
American Education Research Association report determined there 
were no differences in teacher efficacy or teacher confidence 
to an alternatively and traditionally certified teachers.
    We have seen the exceptional talent the educators from 
these programs can offer the nation's K through 12 schools. 
Alternative certification routes help address teacher shortages 
in particular geographic areas and subject matter, as well as 
strengthen the overall quality of the teaching profession.
    While Republicans know there is no one size fits all 
federal solution to help put more effective teachers in the 
classroom, supporting the availability and acceptance of 
alternative certification programs is one way the public and 
private sectors can join together to ensure more students have 
access to a quality education from an extraordinary educator. I 
look forward to learning more about alternative teacher 
certification programs from our witnesses today.
    And I will now recognize my distinguished colleague, Dale 
Kildee, for his opening remarks.
    [The statement of Chairman Hunter follows:]

          Prepared Statement of Hon. Duncan Hunter, Chairman,
  Subcommittee on Early Childhood, Elementary and Secondary Education

    Studies have repeatedly shown teacher quality to be one of the most 
influential factors on student academic achievement. As a father of 
three young children, I've seen firsthand how positively kids respond 
when inspired and motivated by an exceptional teacher--they work 
harder, enjoy learning, and seem more fulfilled after a challenging day 
in the classroom.
    Today we are here to discuss teachers who obtain their 
certification through alternative routes. Alternative certification 
programs allow individuals who already have a postsecondary degree to 
obtain certification to teach without having to go back to college and 
complete a traditional teacher education program. As a result, aspiring 
teachers can begin working with students faster and more efficiently.
    The number of educators who obtain their certification through 
alternate routes has increased significantly over the years. According 
to the National Center for Policy Analysis, from 1996 to 2006 the 
number of alternative certifications issued nationwide increased from 
4,000 to 60,000. Now approximately one third of the new teachers hired 
annually complete alternative certification programs.
    Helping schools recruit, hire, and retain more effective teachers 
is a top priority in the Republican effort to reform elementary and 
secondary education law, currently known as No Child Left Behind. 
Earlier this year, the committee approved two pieces of legislation 
that will help schools identify the most talented teachers.
    A key pillar in the legislation is a provision to eliminate the 
outdated and widely criticized ``Highly Qualified Teacher'' 
requirements. Instead of focusing on an educator's ability to keep 
students engaged, motivated, and learning, these prescriptive 
requirements place undue emphasis on credentials and tenure, ultimately 
restricting schools' ability to hire the best teachers.
    Unless we repeal the Highly Qualified Teacher requirements, 
however, our neediest schools will be prevented from hiring teachers 
certified through alternative pathways. As the president so often 
reminds us, this nation suffers from a shortage of good teachers--all 
the more reason we should continue to support policies that allow 
educators certified through alternative routes to stay in the 
classroom.
    Rigorous studies have consistently shown alternatively certified 
teachers are equally as effective, if not more so, than traditionally 
certified educators. For example, a 2009 national randomized study 
commissioned by the Department of Education found that there is no 
statistically significant difference in performance between students 
taught by teachers certified through alternative routes. Similarly, an 
American Educational Research Association report determined there were 
no differences in teacher efficacy or teaching competence between 
alternatively and traditionally certified teachers.
    We have seen the exceptional talent the educators from these 
programs can offer the nation's K-12 schools. Alternative certification 
routes help address teacher shortages in particular geographic areas 
and subject matter, as well as strengthen the overall quality of the 
teaching profession. While Republicans know there is no one-size-fits-
all federal solution to help put more effective teachers in the 
classroom, supporting the availability and acceptance of alternative 
certification programs is one way the public and private sectors can 
join together to ensure more students have access to a quality 
education from an extraordinary educator.
    I look forward to learning more about alternative teacher 
certification programs from our witnesses today.
                                 ______
                                 
    Mr. Kildee. Thank you, Mr. Chairman. I also want to thank 
our distinguished witness panel for the participation in 
today's hearing. As a former teacher myself, I believe the 
conversation about teacher quality is a very important one, and 
one that we should continue to have discussion on because 
education is dynamic and not static. And so we really welcome 
you here today.
    I look forward to your insights on the benefits and 
challenges of alternative certification and how it can be used 
as tool to provide a quality education for all students. 
Alternative certification of teachers may provide one option to 
increase the supply of teachers, especially in the subject 
shortage areas and high needs schools.
    However, we must be sure that teachers have both subject 
expertise and proper teaching methodology. States must ensure 
that alternative certification programs are high quality, and 
that teachers demonstrate sufficient pedagogical and academic 
knowledge before entering the classroom.
    As I said, alternative certification is only one tool. It 
is not the answer by itself. We must focus on the issue of 
teacher quality at large. Both teachers who took the 
traditional route and those who went through the alternative 
certification need resources and support to be successful in 
the classroom. We must ensure quality and accountability for 
both types of programs through data systems that measure 
effectiveness.
    Additionally, the teachers need high quality pre-service 
training, targeted professional development, mentoring and the 
support of parents and community partners. All of these 
strategies are necessary to create a system where teachers are 
ready when they enter the classroom, and have the encouragement 
to grow and improve.
    What problems should we be concerned with as we consider 
the hoped for benefits of alternative certification? This is 
one question I hope to pursue in this hearing. And I want to 
thank the chairman for calling today's hearing, and look 
forward to the discussion.
    [The statement of Mr. Kildee follows:]

       Prepared Statement of Hon. Dale E. Kildee, Ranking Member,
  Subcommittee on Early Childhood, Elementary and Secondary Education

    Thank you Mr. Chairman.
    I also want to thank our distinguished witness panel for their 
participation in today's hearing. As a former teacher myself, I believe 
the conversation about teacher quality is an important one.
    I look forward to your insights on the benefits and challenges of 
alternative certification, and how it can be used as a tool to provide 
a quality education for all students.
    Alternative certification of teachers may provide one option to 
increase the supply of teachers, especially in subject shortage areas 
and high-needs schools. However, we must ensure teachers have both 
subject expertise and proper teaching methodology.
    States must ensure that alternative certification programs are of 
high-quality and that teachers demonstrate sufficient pedagogical and 
academic knowledge before entering the classroom.
    As I said, alternative certification is only one tool. It is not 
the answer by itself. We must focus on the issue of teacher quality at 
large. Both teachers who took the traditional route and those who went 
through alternative certification need resources and support to be 
successful in the classroom.
    We must ensure quality and accountability for both types of 
programs through data systems that measure effectiveness. Additionally, 
teachers need high-quality pre-service training, targeted professional 
development, mentoring, and the support of parents and community 
partners.
    All of these strategies are necessary to create a system where 
teachers are ready when they enter the classroom and have the 
encouragement to grow and improve. What problems should we be concerned 
with as we consider the hoped for benefits of alternative 
certification?
    This is one question i hope to pursue in this hearing. I want to 
thank the Chairman for calling today's hearing, and look forward to the 
discussion.
                                 ______
                                 
    Chairman Hunter. Thank the gentleman from Michigan.
    Pursuant to Committee Rule 7(c), all subcommittee members 
will be permitted to submit written statements to be included 
in the permanent hearing record. And without objection, the 
hearing record will remain open for 14 days to allow 
statements, questions for the record and other extraneous 
material referenced during the hearing to be submitted in the 
official hearing record.
    It is now my pleasure to introduce our distinguished panel 
of witnesses. First, Ms. Jennifer Mulhern. Good? All right. 
Thank you. Is the vice president for New Teacher Effectiveness 
for TNTP where she oversees the Assessment of Classroom 
Effectiveness Screen, an effort to link teacher certification 
decisions to impact on student achievement.
    Next, Ms. Maura Banta is the director of Citizenship 
Initiatives in Education at IBM. She oversees the company's 
community engagement efforts to improve educational 
opportunities.
    Ms. Cynthia Brown is vice president for Education Policy at 
the Center for American Progress where she directs the 
Education Policy Program.
    And Mr. Seth Andrew is the superintendent of Democracy Prep 
Public Schools, a network of six K through 12 charter schools 
in Harlem which he founded in 2005. He has also worked with 
special education students as a special education teacher and 
administrator for 11 years.
    Before I recognize each of you to provide your testimony, 
let me briefly explain our lighting system. You will have 5 
minutes when you start. When the light turns yellow you will 
have one minute. And when the light turns red I would ask you 
to wrap up your remarks as best as you are able. And after 
everyone has testified members will each have 5 minutes to ask 
questions of you.
    I would now like to recognize Ms. Mulhern for 5 minutes.

       STATEMENT OF JENNIFER MULHERN, VICE PRESIDENT FOR
                NEW TEACHER EFFECTIVENESS, TNTP

    Ms. Mulhern. Kildee and committee members. I am Jennifer 
Mulhern. I serve as vice president to TNTP, a national 
nonprofit that has been working for 15 years to increase access 
to great teaching for high-needs students. Our work is driven 
by the knowledge that teacher quality plays a greater role in 
students' success than any other school-based factor. But the 
students who need great teachers most are often least likely to 
get them.
    To address this challenge, TNTP partners with school 
districts across the country to streamline the path to teaching 
for accomplished career changers and recent graduates. To date, 
TNTP has recruited or trained approximately 49,000 teachers in 
partnerships with more than 200 districts in 31 states. We 
estimate that these teachers have influenced the education of 
approximately eight million students.
    The majority of these teachers enter the profession through 
our Teaching Fellows program, which are among the most 
recognized and highly selective alternative certification 
programs in the country. In 2011 just 10% of all applicants to 
our programs were accepted, making them as difficult to get 
into as some Ivy League universities.
    We start by aggressively recruiting top candidates and 
rigorously screening applicants to ensure they have the 
attitude, skills and expertise needed to be successful in the 
classroom. We then provide intensive pre service training to 
our fellows arrive on the first day of school having mastered 
specific foundational skills that enable them to be immediately 
effective as new teachers. Once the school year begins, 
teachers enroll in TNTP Academy to earn certification, 
attending biweekly evening seminars led by outstanding local 
teachers with a record of success raising student achievement.
    Just as teachers set high standards for their students, 
TNTP Academy sets high--sets a high bar for earning 
certification, a proven track record of success in the 
classroom. While teachers' qualifications and training tell us 
something about the likelihood of teaching effectively, 
performance once in the classroom tells us much more. That is 
why we are among the first teacher preparation programs in the 
country to require participants to demonstrate effectiveness in 
order to be recommended for state certification.
    TNTP uses the Assessment of Classroom Effectiveness, ACE, 
to ensure that all fellows are on track to become great 
teachers. Through ACE we strive to create the fullest possible 
picture of each teacher's performance using multiple measures 
such as principal evaluations, classroom observations, student 
surveys and where available student achievement data. I think 
the strongest evidence for the value of alternative 
certifications can be seen in the results our programs have 
achieved to date.
    In Louisiana for 4 straight years, a state-sponsored study 
of traditional and alternate route teacher preparation pathways 
has found that TNTP-trained teachers are consistently among the 
most effective in the state. We have received more top ratings 
for individual subject areas than any other institution. And 
new teachers trained through our program have outperformed even 
experienced teachers in raising student achievement in several 
core subjects. In math our results have been particularly 
consistent and noteworthy with TNTP Academy teachers achieving 
a positive impact on student learning that may even outweigh 
the negative effects associated with poverty.
    In New York City our 10-year partnership has profoundly 
transformed teacher quality in the nation's largest urban 
school district. More than 9,000 teaching fellows work in city 
schools, mostly serving low-income students. Fellows now 
account for more than 20 percent of New York's math, science 
and special education teachers. And a 2007 Urban Institute 
study found that fellows are largely responsible for a 
remarkable narrowing of the gap in teacher qualifications 
between high and low-poverty schools.
    In addition, alternate route programs like ours are also 
instrumental to high-needs district in addressing critical 
staffing needs. We increase the diversity of the teacher 
workforce. For example, in our programs on average 37 percent 
of all 2010 teaching fellows are people of color, exceeding the 
national average.
    In addition, we are a particularly important source of new 
math, science and special education where many schools face 
chronic shortages. Our programs alone have supplied 9,000 math, 
science and special education teachers since 2005.
    Most importantly, rigorous research shows that teachers 
certified through alternate routes are as effective as 
traditionally certified teachers. As you mentioned a 2009 
nationwide randomized study commissioned by the U.S. Department 
of Education found that there were no statistically significant 
differences in performance.
    Ultimately what matters most is not how a teacher got into 
the classroom, but whether their students learn and grow. We 
should value teachers for their actual effectiveness in the 
classroom, not paper qualifications. The teachers we recruit 
and train are talented, dedicated, diverse and capable of 
delivering high quality instructions to the students who need 
great teachers most.
    Unlike traditional route programs, alternate route programs 
like ours are also able to consider actual classroom 
performance before awarding certification and the privilege of 
making a career in the classroom. Sustaining alternative 
pathways to teacher certification remains essential to ensuring 
that all students have access to the most important resource in 
education, an effective teacher deeply invested in their 
academic success.
    Thank you for your time and consideration.
    [The statement of Ms. Mulhern follows:]

      Prepared Statement of Jennifer Mulhern, Vice President, TNTP

    Chairman Hunter, Ranking Member Kildee and committee members, I am 
Jennifer Mulhern, and I serve as Vice President of TNTP, a national 
nonprofit that has been working for fifteen years to increase access to 
great teaching for high-need students.
    Our work is driven by the knowledge that teacher quality plays a 
greater role in student success than any other school-based factor. But 
the students who need great teachers the most are the least likely to 
get them, especially in chronic shortage areas like math, science and 
special education. To address this challenge, TNTP partners with school 
districts across the country to streamline the path to teaching for 
accomplished career changers and recent graduates, building a pool of 
talented teachers specifically for high-need schools and subjects.
    To date, TNTP has recruited or trained approximately 49,000 
teachers in partnership with more than 200 districts in 31 states. We 
estimate that these teachers have influenced the education of roughly 8 
million students.
    The majority of these teachers entered the profession through our 
Teaching Fellows programs, which are among the most recognized and 
highly selective alternative certification programs in the country. In 
2011, just 10% of all applicants to these programs were accepted, 
making them as difficult to get into as some Ivy League universities.
    Our Teaching Fellows benefit from rigorous training that is 
specifically designed for people without formal education backgrounds 
with a focus on mastering the fundamentals and a great deal of practice 
and coaching designed to lead to gap-closing performance. Our goal is 
to ensure that only Fellows with a proven ability to raise student 
achievement enter and remain in the classroom.
    Our focus on effectiveness begins before Fellows enter the 
classroom. We start by aggressively recruiting top candidates and 
rigorously screening applicants to ensure that they have the attitudes, 
skills, and expertise needed to be successful in the classroom. Each 
candidate is assessed against both skills and essential traits through 
a three-phase selection process that includes a day-long interview and 
demonstration lessons.
    We then provide intensive pre-service training so our Fellows 
arrive on the first day of school having mastered specific, 
foundational skills that enable them to be immediately effective as new 
teachers. Only candidates who demonstrate proficiency in these skills 
are granted the privilege of teaching students.
    Once the school year begins, teachers enroll in TNTP Academy, 
attending bi-weekly evening seminars led by outstanding local teachers 
with a record of success raising student achievement.
    At the heart of TNTP Academy is our unique Teaching for Results 
curriculum, which uses approaches proven to improve outcomes in high-
need schools where students often lag several grade levels behind. 
Teaching for Results focuses on three core areas of teacher 
proficiency: content, assessment and instruction. The curriculum is 
immediately relevant to teachers' work in the classroom, so they can 
apply what they learn in the evening with their students the very next 
day.
    Just as teachers set high standards for their students, TNTP 
Academy sets a high bar for earning certification: a proven track 
record of success in the classroom. While teachers' qualifications and 
training tell us something about their likelihood of teaching 
effectively, performance once they get in the classroom tells us much 
more. We have a responsibility to track teachers' performance 
carefully, use what we learn to help them develop and make smart 
decisions early in their career. That is why we are among the first 
teacher preparation programs in the country to require participants to 
demonstrate effectiveness in the classroom in order to be recommended 
for state certification.
    TNTP uses the Assessment of Classroom Effectiveness (ACE) to ensure 
that all Fellows are on track to become great teachers. Through ACE, we 
strive to create the fullest possible picture of each teacher's 
performance using multiple measures such as principal evaluations, 
classroom observations, student surveys, and--where available--student 
achievement data.
    ACE helps Fellows be more successful by giving them insights on 
their practice. ACE observations identify each teacher's strengths and 
weaknesses so they can improve their teaching and take advantage of 
professional development opportunities that address their individual 
needs. Our staff also uses this information to provide targeted, 
personalized support through seminars and coaching sessions.
    At the end of our Fellows' first year, we review evidence from ACE 
to assess Fellows' performance; only those teachers who earn a passing 
score and who successfully complete all program and state regulatory 
requirements are recommended for certification. Fellows who fall short 
but demonstrate potential are granted an extension year to continue 
improving. Fellows who struggle and show limited prospect of 
improvement are removed from our program without earning certification. 
We set high expectations, and we enforce them.
    The strongest evidence for the value of alternative certification 
can be seen in the results our programs have achieved to date:
    TNTP's ten-year partnership with the New York City Department of 
Education has profoundly transformed teacher quality in the nation's 
largest urban district. More than 9,100 Teaching Fellows--11 percent of 
New York's teaching force--work in the city's schools, most serving 
low-income students. Fellows now account for more than 20% of New 
York's math, science, and special education teachers, and a 2007 Urban 
Institute study found that Fellows are largely responsible for a 
``remarkable narrowing'' of the gap in teacher qualifications between 
high- and low-poverty schools.
    In Louisiana, for four straight years, a state-sponsored study of 
traditional and alternative route teacher-preparation pathways has 
found that TNTP-trained teachers are consistently among the most 
effective in the state. TNTP Academy has received more top ratings for 
individual subject areas than any other institution in the state, and 
new teachers trained through our program have outperformed even 
experienced teachers in raising student achievement in several core 
subjects. In math, results have been particularly consistent and 
noteworthy, with TNTP Academy teachers achieving a positive impact on 
student learning that may even outweigh the negative effects associated 
with poverty.
    Alternate route programs like ours also provide instrumental 
support to high-need districts in addressing their most critical 
staffing needs and do so at scale. Twenty to thirty percent of all new 
teachers hired annually are trained by alternate route programs, 
bringing effective teachers into the classroom that would have 
otherwise been unable to join the profession. In fact, 54% of people 
who came to teaching as a career changer say they would not have become 
teachers if an alternate pathway to certification had not been 
available to them.
    Alternate route programs increase the diversity of the teacher 
workforce. For example, in our programs, on average 37% of all 2010 
Teaching Fellows are people of color. This exceeds the national 
average; nationwide, approximately 12% of all teachers are Black or 
Hispanic, according to 2004-5 data from the U.S. Census Bureau.
    Finally, alternate route programs are also a particularly important 
source of new teacher talent in math, science, and special education, 
where many schools face chronic shortages. In Texas, for example, 
nearly 40% of individuals obtaining secondary mathematics certification 
and about 55% of individuals obtaining secondary science certification 
came through alternative certification programs in 2007. In contrast, 
about 20% of math teachers and 8% of science teachers entered the 
profession through traditional pathways. Our programs alone have 
supplied over 9,000 math, science and special education teachers since 
2005.
    Most importantly, rigorous research shows that teachers certified 
through alternate routes are as effective as traditionally certified 
teachers.
    <bullet> A 2009 nationwide, randomized study commissioned by the 
U.S. Department of Education found that, ``There was no statistically 
significant difference in performance between students of alternative 
route to certification teachers and those of traditional route to 
certification teachers.''
    <bullet> A 2009 analysis that compared educational outcomes in 
states with ``genuine'' alternative certification against those that 
have it in name only found that, ``Students attending schools in states 
with genuine alternative certification gained more on the National 
Assessment of Educational Progress (NAEP) between 2003 and 2007 than 
did students in the other states. The finding holds, even when one 
adjusts for changes in the ethnic composition, free-lunch eligibility, 
class size, and education expenditures for each state.''
    Ultimately, what matters most is not how a teacher got into the 
classroom, but whether their students learn and grow. We should value 
teachers for their actual effectiveness in the classroom, not their 
paper qualifications. The teachers we recruit and train are talented, 
dedicated, diverse, and capable of delivering high-quality instruction 
to the students who need great teachers most. Unlike traditional route 
programs, alternate route programs like ours are also able to consider 
actual classroom performance before awarding certification and the 
privilege of making a career in the classroom. Sustaining alternative 
pathways to teacher certification remains essential to ensuring that 
all students have access to the most important resource in education: 
an effective teacher deeply invested in their academic success.
    Thank you for your time and consideration.
                                 ______
                                 
    Chairman Hunter. Thank you. And you ended right on time.
    Ms. Banta is recognized for 5 minutes.

      STATEMENT OF MAURA O. BANTA, DIRECTOR OF CITIZENSHIP
              INITIATIVES IN EDUCATION, IBM CORP.

    Ms. Banta. Good morning, Chairman Hunter, Ranking Member 
Kildee and committee members. I am Maura Banta from the IBM 
Company, and I thank you for inviting me to testify this 
morning about our model Transition to Teaching.
    I helped design the program and have managed it since its 
inception in 2006. My plan is to share our experiences with 
you. But more importantly, to share why I think many companies 
could use this model to help students develop science, math, 
engineering and technology skills.
    I want to thank the committee for taking the time to engage 
in thoughtful discussion about how we might attract more 
experienced professionals to move into the classroom to share 
their applied knowledge with students. At IBM we are most 
successful when we design initiatives that bring the skills of 
our people directly into the classroom, students, teachers and 
administrators to provide what we call smarter education.
    The program that I am going to share with you today was 
developed out of our desire to help with the STEM teacher 
pipeline. We knew that not enough students were graduating with 
STEM degrees, and our theory was that if we could equip IBMers 
to become full-time K through 12 STEM teachers they could help 
math and science come alive in the classroom.
    We believed that our employees would bring content 
expertise, real-world experience and the working understanding 
of problem-based learning to launch the next generation of 
innovators. More than 120 IBMers have participated in the 
Transition to Teaching program. Each person is a math or 
science professional with at least one degree in a STEM field.
    The applicants are mature, accomplished professionals with 
a variety of IBM experiences. While most come from our 
engineering discipline, they literally come from every part of 
the company. As part of the program they participate in a range 
of teacher certification programs. And that depends on their 
expertise, prior coursework and the specific licensure 
agreements in those states.
    Transition to Teaching is based on a number of proven 
methods and protocols. Teachers must have strong, in-depth 
backgrounds in the subject areas, so a bachelor's degree or 
higher in math and science. And because we believe that IBMers 
need to learn a crafted skill as well as classroom management, 
we reimburse their tuition costs for education preparation. So, 
that could be classes. It could be a leave of absence to do 
student teaching. And we give each participant up to $15,000 to 
enable that.
    We know it is essential for individuals to have real K-12 
classroom experience, to observe good teaching and to practice 
good teaching before they are responsible for a classroom. In 
our experience at least three challenges must be addressed in 
order to attract math and science professionals to education, 
and to prepare them to become exemplary teachers.
    We would encourage policy leaders to focus on first the 
development of standards for both the pedagogical and 
instructional skills. Second, assurances that teacher 
candidates are placed in supportive practice environments under 
qualified instructors. And third, that systems will be 
developed to provide new teachers with mentoring and peer 
support during at least the first 2 years of their practice.
    Many degree programs in education still do not meet this 
criteria. Often they do not give credit for career acquired 
competencies. They end up teaching--treating experienced 
professionals the same way they treat first-year college 
students. We clearly need to develop streamlined programs that 
provide second year teachers with effective and efficient means 
for entering the profession.
    IBM's Transition to Teaching is one such effort. Thus far 
31 IBMers have completed the program, left the company as fully 
accredited teachers and have taken math and science teaching 
positions across the nation. The retention rate for the second 
career STEM teachers is very high. They tell us that they love 
being able to help math and science come alive in the classroom 
through real life application.
    But we know that a single program cannot compensate for 
national shortage of STEM teachers. If an additional 25 large 
companies established programs similar to Transition to 
Teaching, their combined efforts could provide a substantial 
number of new math and science teachers.
    In parallel with addressing the STEM teacher shortage, 
broader corporate participation in teacher transition programs 
would help raise the reputation of teaching as a desirable 
career. However, the private sector alone cannot solve this 
problem. School districts will have to change the way they 
recruit, place and supervise teachers to retain the best 
professionals.
    Feedback from participants and their supervisors is 
terrific. The net is the model is working.
    In summary, to attract new talent to the teaching 
profession, we must take steps to open to qualified people at 
all stages of their working lives. This will require public-
private partnerships that enable the recruitment of new members 
into the profession throughout their careers.
    We should give professionals in many industries the 
opportunity to develop transferrable skills as part of their 
preparation to become teachers. Only in this way will we 
facilitate faster movement into the profession for those with 
the training, dedication and expertise that America desperately 
needs in our classrooms.
    Thank you for the opportunity to provide testimony. And I 
look forward to taking your questions.
    [The statement of Ms. Banta follows:]

       Prepared Statement of Maura Banta, Director of Citizenship
                  Initiatives in Education, IBM Corp.

    Chairman Hunter, Ranking Member Kildee and committee members, I am 
Maura Banta from the IBM Corporation. Thank you for inviting me to 
testify about IBM's Transition to Teaching Program. I helped to design 
the program and have managed it since it's inception in 2006. My plan 
is to share with you our experiences and, more importantly, why we 
think Transition to Teaching is a model that many companies could use 
to help students develop science, math, engineering and technology 
skills.
    I want to thank the Committee for taking the time to engage in 
thoughtful discussion about how we might attract more experienced 
professionals to move into the classroom to share their applied 
knowledge and experiences with students.
    Over the last 20 years, IBM has been one of the leading corporate 
contributors of cash, technology and information technology services to 
non-profit organizations and educational institutions across the U.S. 
and around the world. We have learned that our most effective grants 
and partnerships are those that focus on IBM's unique offerings--not 
only our software, hardware and technical services, but the talent of 
IBMers. We are most successful when we design initiatives to bring the 
skills and experience of our employees into the classroom so they can 
interact directly with students, teachers and administrators to provide 
what we call ``smarter education.''
    I don't need to review the growing body of research that shows the 
disconnect between twenty-first century labor market needs and 
employment opportunities and the shortage of high school graduates 
prepared for STEM careers. We all know that the U.S. is falling well 
behind other countries in the number and proportion of high school 
graduates who intend to pursue STEM careers. The relatively small 
number of students who eventually complete their post-secondary 
education in STEM fields further increases our competitive disadvantage 
in a global economy.
    Clearly, our continued economic growth will require a base of 
scientists, engineers, and the next generation of innovators. To have 
the pipeline of science and engineering talent that we will need, we 
must focus on STEM education beginning at the elementary school level. 
Then, we must ensure that students in middle and high school are 
exposed to educational experiences that will stoke their enthusiasm for 
math, science, and problem solving. We also must maintain high academic 
standards, and provide students with the rigorous training they will 
need for the successful pursuit of scientific and technical degrees in 
college.
    Beyond basic math and science, students also will need a range of 
workplace competencies--including the social skills to work in diverse, 
multi-disciplinary and global teams; the communication skills to work 
with customers, clients and co-workers; the ability to be inquisitive 
and analytical, and to recognize patterns when confronted with large 
amounts of information; and the adaptability to cope with ambiguity as 
leaders and innovators.
    This is a very tall order. And while there are many components to 
effective school improvement, one critical factor is staffing our 
schools with excellent math and science teachers--teachers who have the 
content expertise, real-world experience, and working understanding of 
problem-based learning and the pedagogic practice to launch the next 
generation of innovators.
    In 2006 IBM launched Transition to Teaching, our own initiative to 
address the K-12 STEM pipeline issues by facilitating retiring IBMers' 
moving into science and math education as a way of helping to encourage 
young people to enter STEM careers. This is just part of our portfolio 
of education initiatives including those aimed at bolstering early 
childhood education, strengthening middle school math skills, and 
designing an innovative grades 9-14 school model that confers both the 
high school diploma and a no-cost Associate's degree in Technology.
    For the IBM Transition to Teaching program, we decided to leverage 
our greatest asset--IBM employees. Of course, many IBMers have 
backgrounds in math and science, whether they are currently working in 
software development, research, consulting or management. IBMers also 
are great volunteers.
    Our research shows that most IBMers volunteer in schools--whether 
teaching hands-on science classes during National Engineers Week, 
serving as one of our 6,000 eMentors who provide online academic 
assistance to students, leading after-school programs for middle school 
students, or discussing STEM opportunities on Career Days. IBMers also 
run EX.I.T.E. camps--which stands for Exploring Interests in Technology 
and Engineering--for middle school girls to encourage them to pursue 
math and science careers. These IBMers tell us repeatedly that they 
have a passion for education, for helping young people, and for giving 
back to their communities.
    At the same time that we are seeing a national decline in math, 
science and engineering education and competency, we also are 
witnessing another trend--the graying of the American labor force. With 
a large number of employees approaching the traditional age for 
retirement, but eager to continue contributing in their communities, 
IBM is reaching out to mature, experienced members of our workforce who 
are interested in a second career in teaching.
    Many long-term IBM employees are already thinking about teaching as 
a second career. Others have the exact background and skills needed to 
strengthen STEM education in our schools, and we want to introduce them 
to the idea of teaching. We want to encourage all IBMers who are ready 
for their next challenge to help address the national teacher shortage 
in math and science.
    More than 120 of our most experienced employees have participated 
in the Transition to Teaching program. Each person chosen for the 
program is a math or science professional with at least one degree in a 
STEM field. The applicants are mature accomplished professionals with a 
variety of IBM experiences. Most program participants have engineering 
backgrounds, but participants come from all parts of IBM's business. 
These IBMers also have extensive experience working with children, 
volunteering in one of IBM's many after-school programs, and with 
weekend and summer programs in their communities. As part of Transition 
to Teaching, they participate in a range of teacher certification 
programs--depending on their expertise, prior course work, and the 
specific licensing requirements and available graduate programs in 
their states.
    Transition to Teaching is based on a number of proven methods and 
protocols. Teachers must have strong, in-depth backgrounds in their 
subject areas. We focus on IBMers who have Bachelor's degrees or higher 
in a math or science discipline. Because we believe that IBMers need to 
learn the craft and skill of teaching, classroom management, and 
instructional practice to be effective educators, we reimburse their 
tuition costs for education preparation. IBM provides stipends of up to 
$15,000 so those who are transitioning to teaching can take leaves of 
absence--while maintaining their benefits--to do student or practice 
teaching for up to one year. It is absolutely essential for individuals 
to have real-life K-12 classroom experience--to observe good teaching, 
and then practice good teaching, before taking responsibility for a 
class of children.
    In our experience, at least three challenges must be addressed in 
order to attract math and science professionals to education, and 
prepare them to become exemplary teachers. We would encourage policy 
leaders to focus on:
    1. The development of standards for the pedagogic and instructional 
skills and knowledge required and focus only on those education courses 
that are necessary for teacher certification.
    2. Assurances that teaching candidates are placed in supportive 
practice environments under qualified instructors.
    3. Systems that will provide new teachers with mentoring and peer 
support during their first two years to ensure that they are able to 
provide the highest quality education to their students.
    Many degree programs in education still do not meet these criteria. 
First, too many programs include coursework that is neither relevant 
nor helpful to new teachers, while not providing enough practical, 
hands-on experience. Degree programs do not always give credit for 
career-acquired competencies, and often treat experienced professionals 
the same way they treat first-year college students. We clearly need to 
develop streamlined programs that provide second-career teachers with 
efficient and effective means for entering the profession.
    IBM's Transition to Teaching is one such effort. Thus far, 31 
IBMers have completed the program, left the company as fully certified 
teachers, and taken math and science teaching positions throughout the 
nation. The retention rate for these second-career STEM teachers is 
very high. They tell us that they love being able to help math and 
science come alive in the classroom through real-life applications. But 
we know that a single Transition to Teaching program cannot compensate 
for the national shortage of STEM teachers.
    If an additional 25 large companies established programs similar to 
Transition Teaching, their combined efforts could provide a substantial 
number of new math and science teachers. In parallel with addressing 
the STEM teacher shortage, broader corporate participation in teacher 
transition programs could help raise the reputation of teaching as a 
desirable career. However, the private sector alone cannot solve this 
problem. It will take improvements in teacher training and professional 
development programs in every school district. In addition, school 
districts will have to change the way they recruit, place and supervise 
teachers to retain the best professionals.
    In the meantime, both new teachers and their principals are 
commenting on the success of the IBM Transition to Teaching program:
    ``This is my dream! To become a math teacher.''--Gary, who teaches 
8th grade math in New York
    And from a principal who supervises a Transition to Teaching 
graduate: ``Jennifer has had an outstanding beginning as a teacher. Her 
experience as a mother and a former manager has enabled [her] to 
nurture and advance middle school students at this critical crossroad. 
She is exuberant and enthusiastic about math, and makes it come alive 
for her students. Undoubtedly, her professionalism comes from her IBM 
background, and her enthusiasm is contagious. I am very grateful that 
IBM's Transition to Teaching Program helped to add Jen to our team.''
    Transition to Teaching participants achieve their career 
aspirations while making significant contributions. IBM's preparation, 
financing, and benefits support smoothes the transition. The program 
also benefits IBM by enhancing the company's ability to recruit and 
retain top talent, and by reinforcing IBM's reputation for outstanding 
corporate citizenship. And in the long term, IBM's investment in 
Transition to Teaching strengthens our nation's economic 
competitiveness by helping to ensure a full pipeline of emerging STEM 
professionals.
    IBM has shared the Transition to Teaching model with several 
companies that have replicated its principles. We also have worked with 
the State of California EnCorps STEM teacher transition and training 
program to share our best practices. Meanwhile, IBM continues to seek 
opportunities to influence other companies to embrace and deploy the 
Transition to Teaching model.
    To attract new talent to the teaching profession, we must take 
steps to open it to qualified persons at all stages of their working 
lives. This will require public-private partnerships that enable the 
recruitment of new members of the profession throughout their careers. 
We should give professionals in many industries the opportunity to 
develop transferrable skills as part of their preparation to become 
teachers. Only in this way will we facilitate faster movement into the 
profession for those with the training, dedication and expertise that 
America desperately needs in its classrooms.
    Thank you for the opportunity to provide testimony about the IBM 
Transition to Teaching model. I look forward to fielding questions on 
this important topic.

IBM and STEM education
    Improving public schools around the world continues to be one of 
IBM's top social priorities. Through strategic initiatives, we're 
helping solve education's toughest problems with solutions that draw on 
advanced information technologies and the best minds IBM can apply. 
Because our efforts are focused on preparing the next generation of 
leaders and workers who will lead in the Innovation economy, a number 
of our projects focus on science, technology, engineering and math 
education.

Transition to Teaching
    IBM's Transition to Teaching program is helping address the 
critical shortage of math and science teachers by leveraging the brains 
and backgrounds of some of its most experienced employees. Through 
Transition to Teaching, IBM is enabling its employees to become fully 
accredited teachers in their local communities when they choose to 
leave the company, providing tuition reimbursements up to $15,000, 
stipends during student teaching, and online mentoring and other 
support services in conjunction with colleges, universities and school 
districts. Transition to Teaching has 104 participants with 28 teachers 
at 24 sites.

Teachers TryScience (www.teacherstryscience.org)
    Teachers TryScience, a collaboration between the New York Hall of 
Science, teachengineering.org, and IBM, is a site for teachers. Through 
Teachers TryScience, middle school teachers can improve their 
instruction of project-based learning, with a focus on engineering/
design. Teachers are able to search for standards-based lessons that 
are linked to online professional development resources that will help 
them effectively implement lessons in the classroom. The site also 
provides social networking tools to enable educators to comment on and 
rate the lessons and professional development resources; submit their 
own teaching materials; and engage in focused discussions on relevant 
topics.

TryScience (www.tryscience.org)
    TryScience, a collaboration of the New York Hall of Science, IBM, 
and the more than 600 member institutions of the Association of 
Science-Technology Centers, opens a world of science and discovery to 
students, who otherwise would have no access to the best museums around 
the globe. The site, which is available in nine languages, provides 
interactive exhibits, multimedia adventures, and live camera ``field 
trips.'' TryScience also provides hands-on science projects that 
children, parents, and teachers can do at home or in school. A special 
view for teachers, compiled by the National Science Teachers 
Association Webwatchers' Team, correlates many of the TryScience 
experiments with National Science Education Standards and SciLinks 
codes.

MentorPlace (www.mentorplace.org)
    Through MentorPlace, IBM employees around the world are providing 
students with online academic assistance and career counseling, while 
letting them know that adults do care about their issues and concerns. 
The program provides a meaningful and convenient way for IBM employees 
to volunteer their time and talents in schools. IBM works with teachers 
to determine what activities they would like their students to work on 
with their mentors. Activities cover all core academic areas, including 
science, engineering and math. Traditional mentoring conversations also 
take place. More than 6,000 IBMers in more than 35 countries are 
currently participating in the program.

On Demand Community
    On Demand Community is a first-of-its kind initiative to encourage 
and sustain corporate philanthropy through volunteerism by arming 
employees and retirees with a rich set of IBM technology tools targeted 
for schools and nonprofit organizations. It sets a new standard for 
corporate volunteerism by combining the strengths and skills of our 
people with the power of innovative technologies and solutions. 
Participating members are able to magnify the impact of their 
volunteerism through IBM Community Grants, a new global program that 
provides cash and equipment grant awards to the schools and not-for-
profit organizations where they volunteer.
    On Demand Community offers IBMers with volunteer solutions that 
enable them to share their enthusiasm for math and science with 
students and introduce them to the range of exciting, profitable 
careers in engineering and IT. Presentations include: Encourage math 
and science education; Preparing for an IT career, Game Tomorrow, and 
Lego Robotics.

IBM Technology Camps
    IBM's Technology Camps around the world are designed to foster a 
new generation of scientists and engineers and encourage the thousands 
of young people who have participated in these programs to pursue 
careers in math, science and engineering. There number of jobs 
requiring math is exploding and is a tremendous opportunity for future 
careers. From video games and virtual worlds to electronic healthcare 
records and congestion traffic systems, math is making them go. From 
May--November, programs are held across the United States, Asia, Latin 
America, Europe and Africa for middle school age girls taking part in 
IBM's EX.I.T.E. (EXploring Interests in Technology and Engineering) 
Camps; boys and girls involved in the company's IGN.I.T.E. (IGNiting 
Interesting in Technology and Engineering) programs, and People with 
Disabilities participating in IBM's S.T.E.M. (Science, Technology, 
Engineering and Math) Entry Point workshops.

Under the Microscope
    IBM has designed a dynamic social networking site for the Feminist 
Press called Under the Microscope (underthemicroscope.com) to encourage 
women and girls' interest in science, math and technology. The site: 
collects stories and lessons from technical women, highlighting those 
experiences that were turning points for success and helpful advice for 
the difficult times; encourages teenagers to share their stories, 
concerns and ideas with their peers and mentors; enables technical 
women to network with one another; feature blogs from experts and 
successful career women on topics such as the environment, alternative 
fuel resources, nutrition/health, career development, events, medical 
discoveries; and publishes noteworthy and interesting news from around 
the world.

Computer Science Curriculum (www.ibm.com/university) and (csta.acm.org)
    IBM and the Computer Science Teachers Association are providing 
free access to computer science resources for high school teachers. 
Resources include basic programming and web design principles that 
teachers can incorporate into computer science, math and science 
classes.
    The resources also include a professional development module 
focused on project-based learning that is designed to help teachers 
improve their own instructional strategies.

TryEngineering (www.tryscience.org)
    IBM is the technology partner of TryEngineering, a web site owned 
by IEEE. Designed to appeal to a wide range of audiences, 
TryEngineering.org, aims to inform teachers, school counselors, 
parents, and students about engineering and what engineers do through a 
web site that combines interactive activities with valuable information 
on careers in engineering.

Pathways in Technology Early College High School (P-TECH)
    In September 2011, the New York City Department of Education, The 
City University of New York (CUNY), New York City College of Technology 
(``City Tech'') and the IBM Corporation opened Pathways in Technology 
Early College High School (P-TECH)--an innovative public school 
spanning grades 9-14. P-TECH's mission is to provide students with a 
personalized pathway towards mastery of the skills and knowledge that 
they will need to make the transition from education to industry. P-
TECH students will graduate with a no-cost associate degree, and will 
be positioned to secure entry-level positions in the highly competitive 
Information Technology field(s) and/or complete their studies in a 
four-year higher education institution.
    P-TECH opened in Brooklyn, New York with 104 students in the ninth 
grade, and will add a grade each year for six years. Students come from 
all boroughs of the city, but predominantly from the surrounding 
neighborhoods. They were not screened for admission, and no tests were 
required. However, students did have to demonstrate their interest in 
P-TECH by attending a school fair or a parent meeting. P-TECH is 67 
percent male and 33 percent female, and many of the students will be 
the first in their families to earn a postsecondary degree.
    P-TECH was never planned as a single or charter school serving a 
small number of fortunate students. The broader goal always has been to 
apply the knowledge and experiences developed in this pilot school to 
serve as a model for use by other traditional high schools in New York 
City, nationally and globally. P-TECH is designed to be the first in a 
series of similar institutions, and an exemplar of how K-12 schools, 
higher education institutions and public/private partnerships can 
substantially raise graduation rates, prepare greater numbers of 
students to fill good paying jobs in the IT or other fields, and enable 
more students to successfully pursue postsecondary education.

Components of the P-TECH Program
    P-TECH provides students with a school-college-career continuum 
that helps them understand the direct links between what they are 
learning today and the worlds of college and work. The school's 
rigorous program is designed to inspire students to focus and strive. 
While P-TECH is a comprehensive school with a number of significant 
elements, the following provides a brief overview of the core 
components of the program.
    Focus on Early College: Student learning is focused from grade nine 
on, through a six-year scope and sequence of high school and college 
coursework to ensure that students will earn an Associate in Applied 
Science degree in either Computer Science Technology or 
Electromechanical Engineering Technology, awarded by New York City 
College of Technology at CUNY, the school's lead college partner. The 
curriculum is also aligned with the Common Core standards as the 
foundation for learning in college, particularly higher education 
institutions with strong math, science and engineering programs. As 
part of creating the early college culture, students immediately 
participate in other aspects of the college environment, engaging with 
college faculty and students.
    Focus on Careers: Students participate in an ongoing, sequenced 
Workplace Learning curriculum informed by current and future industry 
standards that includes career goals, mentoring, guest speakers, 
workplace visits and internships. Minimum requirements for entry-level 
IT jobs, as provided by IBM and other industry partners, have been 
mapped to the curriculum and are serving as academic benchmarks and 
targets. A coalition of industry advisors is assuring that the program 
aligns with industry needs as the IT field evolves. To serve as an 
added incentive to students, IBM also is making graduates first in line 
for entry-level jobs--thereby strengthening the continuum from school 
to college and career.
    Focus on Personal Pathways: Each student moves through a 
personalized academic pathway that is closely monitored by his or her 
teachers and advisors, based on their individual needs and performance. 
While the school meets all state mandates for regents and courses, the 
pace at which the student moves through the high school and associate 
degree requirements is personalized, and the requirements sequences are 
intricately intertwined. While all students are expected to meet high 
school requirements and earn their associate degree in six years, some 
may proceed at an accelerated pace to earn their associate degree in a 
shorter time.
    Extended Learning Time: In addition to extending college level 
coursework into what has conventionally been the high school years, the 
school day and year also are being extended beyond the traditional 
schedule to include even more individual support for students.
    Specialized Staffing: In order to ensure that the model is 
adequately supported, both the college and industry partners have 
provided a full-time position to the school: an Early College Liaison 
and an Industry Liaison. These positions work directly with the 
leadership, staff and students. In this way the model is continually 
monitored to ensure effective practice.
                                 ______
                                 
    Chairman Hunter. Thank you, Ms. Banta.
    Now, for Ms. Brown, who has lost her voice. I know there 
are many in this room that would wish her ailment on me. But it 
is not going to happen so I am sorry. So, Mr. Ayers is going to 
read your testimony. You have 5 minutes.

       STATEMENT OF CYNTHIA G. BROWN, VICE PRESIDENT FOR
         EDUCATION POLICY, CENTER FOR AMERICAN PROGRESS

    Mr. Ayers. Thank you, Chairman Hunter and Ranking Member 
Kildee for inviting my boss Cynthia Brown to testify on the 
value of alternative teacher certification. We at CAPAF believe 
that teacher effectiveness is critical to the success of 
education reform, which is why forward-thinking leaders are 
focused on reforming teacher certification.
    Adding urgency is a growing consensus that the supply of 
new teachers is not meeting the demand, particularly for hard-
to-staff schools and subjects. Alternative certification is a 
promising strategy for addressing that need. Yet we need to 
institute policies that ensure the programs are high quality.
    To be sure, the same needs are true for traditional teacher 
preparation. The overwhelming majority of teachers continue to 
be trained by traditional programs which must also be reformed. 
Until our country becomes far more selective in recruiting, 
training and retaining top tier teachers, student achievement 
will continue to lag.
    We would like to make three key points in our testimony 
today. First, teacher policy must focus on effectiveness more 
than qualifications, which frees us from some of the 
unproductive debates about alternative certification. Two, high 
quality certification is a promising strategy for increasing 
the supply of effective teachers, and much can be done to 
promote higher quality. Three, federal and state policies 
should be put in place to expand the pipeline of talented 
teachers through robust alternative and traditional 
preparation.
    To that end, we would recommend that Congress focus on 
three main policy levers. And we will elaborate more later. 
First, revise the Elementary and Secondary Education Act to 
focus on teacher effectiveness through the use of comprehensive 
teacher evaluations. Two, fund the development and expansion of 
high quality alternative certification programs, similar to the 
way Congress does with high quality charter schools. And three, 
increase accountability for all teacher training programs, 
alternative and traditional, so that outcomes improve and 
limited resources are spent wisely.
    We would like to expand briefly on each of these points. 
First of all, teacher policy must focus on effectiveness. We 
know that inputs like credentials, certification, licensure, 
master's degrees do not necessarily predict solidly how well 
teachers will help students learn. So, it is time for 
policymakers to stop relying on these proxies and start 
insisting that states and schools and school districts use 
direct measures of effectiveness to assess teacher performance.
    We know that high quality alternative certification is a 
promising strategy. Alternative certification generally targets 
applicants who already have an undergraduate degree and then 
streamline their coursework.
    We know that some of these candidates are working in hard-
to-staff schools or subjects, so as long as the programs are 
high quality this is a worthwhile strategy. Thus, policymakers 
should keep several things in mind as they seek to improve 
alternative certification programs.
    One is to minimize the burden placed on participants. 
States should ensure that alternative certification programs 
are affordable to a wide range of non-traditional candidates by 
requiring only that coursework and learning experiences that 
are essential.
    Two is to be selective in recruitment. Across the board the 
bar to entry is far too low actually.
    Three, frequently assess. Teacher candidates currently get 
infrequent feedback on their progress and need ongoing 
information to help them improve and to control for quality.
    Four is to provide mentoring and induction alternatively to 
certify teachers with condensed training could benefit even 
more from these comprehensive induction programs.
    Five is to strengthen accountability programs to be judged 
by the performance of their graduates. And states could use 
that data to improve, reward or close programs.
    Six is to allow multiple providers for preparation and 
certification. Nonprofits, charter schools and school districts 
should all be allowed to be providers, as long as they produce 
effective teachers.
    In terms of federal policy CAPAF recommends that Congress 
take the following steps to improve teacher training, both for 
traditional and alternative preparation programs.
    One is to revise ESEA to focus on teacher effectiveness 
more than on qualifications. Congress should require states to 
adopt comprehensive evaluation systems that inform professional 
development and personnel decisions. Title II of ESEA is ripe 
for an overhaul. Title II funds could be used to tighten up 
teacher training based on the results of teacher evaluations.
    Second, we encourage Congress to fund the development and 
expansion of high quality alternative certification programs, 
similar to the way Congress does with charter schools. Congress 
should authorize a competitive state grant program for 
increasing high quality alternative certification programs 
conditioned on the implementation of policies that ensure 
quality.
    The program can take a tiered funding approach similar to 
the way that ESEA does. Programs showing the greatest evidence 
would receive larger amounts of funding. Those with less 
evidence, but promise, could receive less funding for startup.
    Three, we recommend that you increase accountability for 
all teacher training programs. Congress should require states 
to measure the effectiveness of their teachers, link the data 
to training programs and use that information to reward, 
improve or shut down preparation programs regardless of their 
route. We believe effectiveness data should include impact on 
student achievement, but also persistence rates for up to 5 
years and feedback surveys from teachers and school districts.
    Our current teacher policies at all levels, federal, state 
and local are inadequate for the demands we are placing on 
schools. We must improve the supply and effectiveness of 
teachers if we are to raise standards, turn around low-
performing schools, increase innovation and remain 
internationally competitive.
    We thank the subcommittee for taking on this important 
issue, and focusing attention on improving the teacher 
pipeline, particularly for our nation's high-need schools.
    [The statement of Ms. Brown follows:]

       Prepared Statement of Cynthia G. Brown, Vice President for
       Education Policy, Center for American Progress Action Fund

    Thank you, Chairman Hunter and Ranking Member Kildee, for inviting 
me to testify on the value of alternative teacher certification 
programs. My name is Cynthia Brown, Vice President for Education Policy 
at the Center for American Progress Action Fund.
    Teacher effectiveness is critical to the success of education 
reform efforts, which is why forward-thinking leaders are focused on 
reforming teacher certification. Adding urgency to the effort is a 
growing consensus that the supply of new teachers isn't meeting the 
demand, particularly for subject shortage areas and hard-to-staff 
schools. Alternative certification programs are a promising strategy 
for addressing that necessity. Yet, to realize the benefits of these 
programs, we need to institute policies that ensure the programs are 
high-quality, innovative, and effective. To be sure, the same needs are 
true for traditional teacher preparation. The overwhelming majority of 
teachers continue to be trained by traditional programs, which must 
also be reformed.\1\ Until our country becomes far more selective in 
recruiting, training, and retaining top-tier teachers, student 
achievement will continue to lag.
    I want to make three key points in my testimony today--
    1. Teacher policy must focus on teacher effectiveness more than on 
qualifications, which frees us from some of the unproductive debates 
around alternative certification.
    2. High-quality alternative certification is a promising strategy 
for increasing the supply of effective teachers, and much can be done 
to promote higher quality.
    3. Federal and state policies should be put in place to expand the 
pipeline of talented teachers through robust alternative certification 
and traditional preparation programs.
    To that end, I would recommend that Congress focus on three main 
policy levers to improve the supply of effective teachers--
    1. Revise the Elementary and Secondary Education Act (ESEA) to 
focus on teacher effectiveness through the use of comprehensive 
evaluation systems.
    2. Fund the development and expansion of high-quality alternative 
certification programs, similar to the way Congress funds high-quality 
charter schools.
    3. Increase accountability for all teacher training programs--
alternative and traditional--so that outcomes improve and limited 
resources are spent wisely.
    I would now like to expand on each of these points.
    Teacher policy must focus on teacher effectiveness more than on 
qualifications. For too long our nation has assumed that teachers who 
obtain state certification are fit to teach, and that most would 
eventually excel in the classroom after gaining some experience. But 
research proved us wrong. Inputs and credentials like certification, 
licensure, master's degrees, experience, or teacher preparation 
coursework are not solid predictors of how well teachers will help 
students learn.\2\ Some inputs like subject matter knowledge do matter, 
especially in the upper grades.\3\ But it is time for policymakers to 
stop relying wholly on proxies and to start insisting that states and 
school districts use outputs--direct measures of effectiveness--to 
assess teacher performance and improve teaching and learning.
    Pioneering states have begun to do this. In 2011, 26 states used 
student achievement measures as part of their evaluation systems.\4\ 
When combined with other evidence of effective teaching, states are 
beginning to develop fair, comprehensive, and reliable systems of 
evaluation.
    This is the right move to make, and federal policy should follow 
suit. It is fine to set a minimum bar to enter the classroom, such as 
requiring a college degree, subject matter competency, and some form of 
training.\5\ But we should not pretend that this is a ceiling. It is a 
floor. If we focus on teacher effectiveness, that will free us from 
some of the interminable debates on the best route to preparing and 
certifying teachers. What matters most is how well teachers do in the 
classroom, not how they arrived there.
    High-quality alternative certification is a promising strategy for 
increasing the supply of effective teachers for high-need schools, 
subjects, and areas. The overwhelming majority of teacher graduates (79 
percent in 2010) \6\ take a traditional path into teaching. That means 
they graduate from college, take a specified set of education courses, 
complete a practice teaching component, and pass an exam in order to 
obtain a certificate. Some states require them to earn an advanced 
certificate once they have taught for several years.
    Alternative certification, by contrast, generally targets 
applicants who already have an undergraduate degree but need education 
coursework to meet state certification requirements. So alternative 
certification programs streamline or condense those requirements. For 
example, they may require shorter but more intensive practice teaching 
assignments or more targeted, practical coursework. And usually 
teachers in alternative certification programs assume duties in a 
classroom while they complete their program. However, they like all 
other teachers, earn certification. They just do it in a different 
way.\7\
    The first alternative certification programs began in the early 
1980s, the most notable of which was the New Jersey Provisional Teacher 
Program begun in 1985.\8\ In 2010 (the most recent year with available 
data), 45 states plus DC approved some type of alternate route, and 21 
percent of teacher graduates came from an alternative certification 
program.\9\ Alternate routes have often been used to recruit candidates 
that would otherwise not enter teaching--candidates who are older and/
or have knowledge of hard-to-staff subjects like math or science--and 
to recruit teachers for working in high-need schools and areas. Some 
programs, like the New York City Teaching Fellows, were created to 
replace teachers who had emergency credentials.\10\
    Research shows that graduates of alternative certification 
programs, on average, perform at the same level as traditionally 
prepared teachers who work in similar schools.\11\ There are some low-
performing alternate routes for sure, and there are some that outshine 
traditional programs. But on average, teachers perform about the same. 
So, it is important to remember that the goal of alternate routes is to 
increase the supply of teachers by drawing from a different, sometimes 
larger pool of candidates than the traditional brick-and-mortar 
university. And evidence shows that many alternatively certified 
teachers do work in high-need schools or subjects.\12\ Thus, as long as 
the programs are high-quality, they are legitimate and worthwhile 
approaches to improving teacher supply.
    Several policies could be put in place to expand the pipeline of 
talented teachers through robust alternative certification programs. 
Policymakers at the federal and state level should keep several things 
in mind as they take steps to improve the effectiveness of alternative 
certification programs--
    1. Minimize the burden placed on program participants. States 
should ensure that alternative certification programs are affordable to 
a wide range of nontraditional candidates by strategically requiring 
only coursework and learning experiences that are essential. States can 
do this by defining what competencies teachers must obtain, rather than 
credit hours they must earn. The best programs select candidates who 
have already mastered their content area and only need training in 
teaching methods, and they minimize burden to entry in order to attract 
the largest possible pool.\13\
    2. Ensure alternative certification programs are high-quality. 
Given the unevenness in quality and content of alternative 
certification programs,\14\ several things could be done to strengthen 
their quality and rigor--
    Be selective in recruitment. Across the board, the bar to entry is 
far too low. The best programs require a high minimum GPA and strong 
subject matter knowledge to participate. Relatedly, states should set 
higher cut scores for passing licensure or certification exams. Current 
pass rates on state certification exams are almost 100 percent and tell 
us little about how teachers will perform in the classroom.\15\
    Frequently assess. Teacher candidates currently get infrequent 
feedback on their progress. Alternative certification could be 
strengthened by ensuring trainees get frequent, diagnostic, 
performance-based feedback throughout their training and into their 
first years of teaching. 25 states and 180 preparation programs have 
joined the Teacher Performance Assessment (TPA) Consortium, which has 
created a subject-specific, performance-based assessment for pre-
service teacher candidates, centered on student learning.\16\ A 
reliable, valid system of performance assessments based on common 
standards would provide consistency in measuring teacher effectiveness, 
track teacher progress, flag areas of need, and create a continuum of 
performance throughout a teacher's career.\17\ It would also provide 
rich information for improving preparation programs and holding them 
more accountable.
    Provide mentoring and induction. Many new teachers are left to sink 
or swim once in the classroom. Alternatively certified teachers with 
shortened or condensed training could benefit even more from high-
quality induction programs that have been shown to improve retention, 
teaching practice, and student achievement.\18\ A 2007 study by the New 
Teacher Center also found that every $1.00 invested in induction yields 
$1.66 in returns.\19\
    Strengthen accountability. Programs should be judged by the 
performance of their graduates, not on their path to get teachers into 
schools. States could enhance alternative route programs substantially 
by creating and using robust data systems that measure teacher 
effectiveness, as well as retention rates, where teachers are placed, 
and feedback from districts and schools on how well the candidates 
perform.\20\ States could then use that data to inform the improvement, 
reward, or closure of alternative certification programs. Feedback data 
will help ensure that alternative certification programs are meeting 
the needs of the schools that hire them.
    3. Invest in innovation and growth. Alternative certification 
programs are sometimes stifled by political opposition, limited 
resources, or fallout from poor results. To encourage innovation and 
growth, policymakers can take several steps--
    Strengthen accountability. As I just mentioned, policymakers would 
be wise to focus limited resources on programs that work and close 
those programs that do not.
    Allow multiple providers of preparation and certification. 
Restricting preparation and certification to universities and states 
artificially constricts the teacher pipeline. Nonprofits, charter 
schools, and school districts can and should be providers as long as 
they produce effective candidates.
    Invest in high-quality programs. States and the federal government 
should identify and expand effective programs. At the same time, they 
should invest in promising programs and require them to demonstrate 
results to receive continued funding.
    As Members of Congress I know you are, of course, interested in 
what the federal government specifically can do to promote teacher 
effectiveness. CAPAF recommends that Congress take the following steps 
to improve teacher training overall, both for traditional and 
alternative preparation programs--
    1. Revise the Elementary and Secondary Education Act (ESEA) to 
focus on teacher effectiveness, more than on teacher qualifications. We 
cannot know how well our preparation programs train teachers if we do 
not know how teachers perform in the classroom. Thus, Congress should 
require states to adopt comprehensive evaluation systems as a condition 
of receiving Title II funds. Title II is ripe for an overhaul. The 
current program, which funds teacher and principal training, is a grab 
bag of allowable uses that have not proven effective. Most states and 
districts spend this money on professional development and class-size 
reduction that have not shown substantial results.\21\
    Evaluation systems should measure and improve the impact teachers 
make on student learning. Performance should be measured in multiple, 
objective, and valid ways that at least include measures of student 
achievement, classroom observations, and student feedback. Title II 
funds could then be used to tighten up professional development based 
on the results of evaluations. Groundbreaking work by the Gates 
Foundation's Measures of Effective Teaching Project has involved over 
3,000 teachers in seven large districts.\22\ The project has shown how 
observations and feedback can accurately identify quality teaching and 
can be used alongside measures of student learning. We as a nation must 
shift the conversation toward measuring, rewarding, and improving 
teacher effectiveness, more than their qualifications, both during and 
after teacher training.
    2. Fund the development and expansion of high-quality alternative 
certification programs, similar to the way Congress funds high-quality 
charter schools. There is a shortage of high-quality teacher candidates 
for our country's high-need schools. Thus, Congress should authorize 
competitive state grants for increasing high-quality alternative 
certification programs, conditioned on the implementation of policies 
that ensure quality. Congress does something similar now with the 
Replication and Expansion grants in the Charter School Program. The 
Replication and Expansion grants have funded 250 new high-quality 
charter schools in 17 states in just two years.\23\ Congress could 
provide similar competitive grants to fund high-quality alternative 
certification programs. The program could take a tiered-funding 
approach similar to the Investing in Innovation Fund. That is, programs 
showing the greatest evidence would receive larger amounts of funding 
to support expansion, while those with less evidence but showing 
promise would receive less funding for start-up purposes. Low-
performing programs would lose funding. Using a pay-for-success 
approach, some programs might receive small initial funding that would 
only continue or grow as programs demonstrate success. This would help 
ensure that limited federal resources are spent wisely.
    3. Increase accountability for all teacher training programs--
alternative and traditional. Current accountability for teacher 
training is woefully inadequate. Rarely do programs measure the impact 
of their graduates on student learning (only 28 states do so), where 
graduates teach, or how long they remain. The most common criteria 
programs use are inputs with little or no correlation to outcomes--like 
accreditation status, pass rates on notoriously weak certification 
exams, or program completion rates. Some programs even use criteria 
like student-faculty ratios, minimum hours devoted to student teaching, 
or adherence to state reporting requirements.\24\ These are hardly 
outcomes-based indicators that measure the effectiveness of preparation 
programs.
    Thus, Congress should require states to measure the effectiveness 
of teachers, link the data to training programs, and use the 
information to reward, improve, or shut down teacher preparation 
programs, regardless of their route. We believe effectiveness data 
should include impact on student achievement, persistence rates for up 
to 5 years, and feedback surveys from teachers and their employers 
(i.e., school districts). This requires robust data systems that 
include information from state education, labor department (or state 
insurance department), university, and school district data 
systems.\25\ But measuring and reporting data is only one step. Acting 
on that data is the next step. States should annually identify and 
reward high-performing programs, provide guidance for improving low-
performing programs, and eventually close chronically underperforming 
programs. In order to be fair and rigorous, such accountability should 
apply to all training programs in the state, including traditional and 
alternative programs.
    There is leverage to accomplish this. Currently the Higher 
Education Act (HEA) requires states to assess the performance of 
teacher preparation programs and to identify and assist low-performing 
programs. But unfortunately, only 38 states identified low-performing 
programs in 2010, the most recent year with available data. Out of over 
2,000 programs nationwide, a mere 38 (or less than 2 percent) were 
flagged as low-performing or at-risk of being low-performing. Fifteen 
were located in Texas alone.\26\ The upcoming reauthorization of both 
ESEA and HEA will be ripe opportunities to strengthen accountability 
for teacher training.
    Our current teacher policies at all levels--federal, state, and 
local--are inadequate for the demands we are placing on schools. We 
must improve the supply and effectiveness of teachers if we are to 
raise standards, turn around low-performing schools, increase 
innovation, and remain internationally competitive. High-quality 
alternative certification programs are a promising strategy to help 
improve the supply of teachers. With smart reforms and targeted 
investment they can be expanded to increase the pool of talented 
teachers. But they must also be accompanied by overall reforms to 
traditional preparation and state and district policies that impact 
hiring and placement, evaluation, career advancement, professional 
development, and personnel decisions.
    I thank the Subcommittee for taking on this important issue and 
focusing attention on improving the teacher pipeline, particularly for 
our nation's high-need schools and areas.

                                ENDNOTES

    \1\ U.S. Department of Education, Office of Postsecondary 
Education, ``Preparing and Credentialing the Nation's Teachers: The 
Secretary's Eighth Report on Teacher Quality; Based on Data Provided 
for 2008, 2009 and 2010,'' (Washington, DC: Author, 2011), available at 
http://www2.ed.gov/about/reports/annual/teachprep/2011-
title2report.pdf, accessed July 18, 2012.
    \2\ For a review of this research see National Council on Teacher 
Quality, ``Increasing the Odds: How Good Policies Can Yield Better 
Teachers,'' (Washington, DC: Author, 2004). For more recent evidence, 
see Raegen Miller and Marguerite Roza, ``The Sheepskin Effect and 
Student Achievement,'' (Washington, DC: Center for American Progress, 
2012), available at http://www.americanprogress.org/issues/2012/07/
sheepskin--effect.html, accessed on July 19, 2012. See also Charles 
Clotfelter, Helen Ladd, and Jacob Vigdor, ``Teacher Credentials and 
Student Achievement in High School: A Cross-subject Analysis with Fixed 
Effects,'' (Washington, DC: Urban Institute, 2007); Dan Goldhaber, 
``Everyone's Doing It, But What Does Teacher Testing Tell Us About 
Teacher Effectiveness?'' (Washington, DC: Urban Institute, 2006); Tom 
Kane and Douglas Staiger, ``Using Imperfect Information to Identify 
Effective Teachers.'' (Unpublished Paper. Los Angeles: School of Public 
Affairs, University of California--Los Angeles, 2005); Eric Hanushek, 
John Kain, and Steven Rivkin, ``Teachers, Schools, and Academic 
Achievement. Econometrica 73 (2): 2005.
    \3\ B. Chaney, ``Student Outcomes and the Professional Preparation 
of 8th Grade Teachers'' NSF/NELS (Rockville, 1995); Brian Rowan, Fang-
Shen Chiang, and Robert J. Miller, ``Using Research on Employees' 
Performance to Study the Effects of Teachers on Students' 
Achievement,'' Sociology of Education 70 (4) (1997): 256-284; Dan D. 
Goldhaber and Dominic J. Brewer, ``Why Don't Schools and Teachers Seem 
to Matter? Assessing the Impact of Unobservable on Educational 
Productivity,'' Journal of Human Resources 32 (1996): 503-523; Dan D. 
Goldhaber and Dominic J. Brewer, ``Does Teacher Certification Matter? 
High School Certification Status and Student Achievement,'' Educational 
Evaluation and Policy Analysis, 22 (2) (2000): 129-145; Harold 
Wenglinsky,''How Teaching Matters: Bringing the Classroom Back Into 
Discussions of Teacher Quality,'' Educational Testing Service 
(Princeton, NJ: 2000).
    \4\ National Council on Teacher Quality, 2011 State Teacher Policy 
Yearbook (Washington, DC: Author, 2011), available at http://
www.nctq.org/stpy11/reports/stpy11--national--report.pdf, accessed on 
July 19, 2012.
    \5\ See Ulrich Boser and Robin Chait, ``Advancing Teacher and 
Principal Effectiveness: Four Recommendations for Reforming the 
Elementary and Secondary Education Act,'' (Washington, DC: Center for 
American Progress, 2011), available at http://www.nctq.org/stpy11/
reports/stpy11--national--report.pdf, accessed July 19, 2012.
    \6\ U.S. Department of Education, ``Preparing and Credentialing the 
Nation's Teachers.''
    \7\ Daniel C. Humphrey and Marjorie E. Wechsler, ``Insights into 
Alternative Certification: Initial Findings from a National Study,'' 
(Arlington, VA: SRI International, 2005), available at http://
www.teach-now.org/RESEARCH%20ABOUT%20ALTERNATE%20ROUTES.pdf, accessed 
July 18, 2012.
    \8\ Emily Feistritzer and Charlene K. Haar, ``Research on Alternate 
Routes Education Research'' (Washington, DC: National Center for 
Alternative Certification, 2010), available at http://www.teach-
now.org/RESEARCH%20ABOUT%20ALTERNATE%20ROUTES.pdf, accessed July 18, 
2012.
    \9\ Only North Carolina, North Dakota, Ohio, Oregon, and Wyoming 
reported approving no alternative preparation programs in 2010. See 
U.S. Department of Education, ``Preparing and Credentialing the 
Nation's Teachers.''
    \10\ Donald Boyd, Pamela Grossman, Hamilton Lankford, Susanna Loeb, 
and James Wyckoff, ``How Changes in Entry Requirements Alter the 
Teacher Workforce and Affect Student Achievement'' (Teacher Policy 
Research, November 2005), available at http://
www.teacherpolicyresearch.org/portals/1/pdfs/how--changes--in--entry--
requirements--alter--the--teacher--workforce.pdf, accessed on July 18, 
2012.
    \11\ David Gatlin, ``Thinking Outside the University: Innovation in 
Alternative Certification,'' (Washington, DC: Center for American 
Progress, 2008); Donald Boyd, et. al, ``How Changes in Entry 
Requirements Alter the Teacher Workforce and Affect Student 
Achievement''; Tim Sass, ``Certification Requirements and Teacher 
Quality: A Comparison of Alternative Routes to Teaching,'' December 12, 
2011, available at http://www.learningfront.com/Media/Alternative--
Certification--and--Teacher--Quality--11.pdf, accessed on July 18, 
2012; Marilyn Cochran-Smith and Kenneth M. Zeichner, eds., Studying 
Teacher Education: The Report of the AERA Panel on Research and Teacher 
Education (Washington, DC: American Educational Research Association, 
2005).
    \12\ Emily Feistritzer and Charlene K. Haar, ``Research on 
Alternate Routes Education Research.''
    \13\ See Robin Chait and Michele McLaughlin, ``Realizing the 
Promise: How State Policy Can Support Alternative Certification 
Programs,'' (Washington, DC: Center for American Progress, 2009).
    \14\ Susan Moore Johnson, Sarah E. Birkeland, and Heather G. Peske, 
``A Difficult Balance: Incentives and Quality Control in Alternative 
Certification Programs'' (Cambridge, MA: Harvard Project on the Next 
Generation of Teachers, 2005), available at http://www.gse.harvard.edu/
?ngt/Balance.pdf, accessed on July 18, 2012; Daniel Humphrey and 
Marjorie Wechsler, ``Insights into Alternative Certification.''
    \15\ 96 percent of teacher candidates graduating from traditional 
preparation programs passed their certification or licensure exam in 
the 2008-09 school year, the most recent year of available data. 97 
percent of graduates from alternative preparation programs passed their 
exams in 2008-09. See U.S. Department of Education, ``Preparing and 
Credentialing the Nation's Teachers.''
    \16\ Teacher Performance Assessment Consortium, available at http:/
/aacte.org/Programs/Teacher-Performance-Assessment-Consortium-TPAC/
teacher-performance-assessment-consortium.html, accessed on July 20, 
2012.
    \17\ See Linda Darling-Hammond, ``Evaluating Teacher Effectiveness: 
How Teacher Performance Assessments Can Measure and Improve Teaching,'' 
(Washington, DC: Center for American Progress, 2010).
    \18\ See New Teacher Center, ``New Teacher Support Pays Off: A 
Return on Investment for Educators and Kids,'' (Santa Cruz, CA: Author, 
2009), available at http://www.newteachercenter.org/sites/default/
files/ntc/main/resources/BRF--NewTeacherSupportPaysOff-
AReturnonInvestment.pdf, accessed on July 19, 2012.
    \19\ Anthony Villar and Michael Strong, ``Is Mentoring Worth the 
Money? A Benefit-Cost Analysis and Five-Year Rate of Return of a 
Comprehensive Mentoring Program for Beginning Teachers,'' in ERS 
Spectrum, Vol. 25, No. 3, November 2007.
    \20\ See Ed Crowe, ``Measuring What Matters: A Stronger 
Accountability Model for Teacher Education,'' (Washington, DC: Center 
for American Progress, 2010), available at http://
www.americanprogress.org/issues/2010/07/teacher--accountability.html, 
accessed on July 19, 2012.
    \21\ Robin Chait and Raegen Miller, ``Ineffective Uses of Title II 
ESEA Funds,'' (Washington, DC: Center for American Progress, 2010), 
available at http://www.americanprogress.org/issues/2009/08/pdf/
titleII--brief.pdf, accessed July 20, 2012.
    \22\ Measures of Effective Teaching Project, available at http://
www.metproject.org/, accessed July 19, 2012.
    \23\ Charter Schools Program Grants for Replication and Expansion 
of High-quality Charter Schools, available at http://www2.ed.gov/
programs/charter-rehqcs/index.html, accessed July 20, 2012.
    \24\ U.S. Department of Education, ``Preparing and Credentialing 
the Nation's Teachers.''
    \25\ Ed Crowe, ``Measuring What Matters.''
    \26\ U.S. Department of Education, ``Preparing and Credentialing 
the Nation's Teachers.''
                                 ______
                                 
    Chairman Hunter. Thank you, Ms. Brown through Mr. Ayers.
    And Mr. Andrew, you are recognized for 5 minutes.

             STATEMENT OF SETH ANDREW, FOUNDER AND
         SUPERINTENDENT, DEMOCRACY PREP PUBLIC SCHOOLS

    Mr. Andrew. Thank you, Chairman Hunter, Ranking Member 
Kildee and members of the committee. Thank you for inviting us 
to speak here today about what we believe is one of the most 
significant challenges facing our democracy, recruiting a new 
generation of excellent teachers and leaders.
    My name is Seth Andrew and I am the founder and 
superintendent of Democracy Prep Public Schools, a district of 
public charter schools in Harlem, New York. We educate 2,000 
students from grades K through 12 for success in the college of 
their choice and a life of active citizenship.
    Our scholars consistently outperform even wealthy 
Westchester County on high stakes regions exams. And just last 
week our first turnaround school, Harlem Prep was recognized 
for having the single highest literacy growth of any school in 
the entire state of New York.
    I have a few of our amazingly hardworking scholars here. I 
am grateful to Jamie and Michael and Omar for joining me and 
giving me support. And they have helped to make Democracy Prep 
the highest performing management organization in New York 
City.
    When I was their age I served as a congressional page. I 
was actually here and Congressman Kildee was on my page board 
in fact. And at the time I thought of ways that you could find 
bipartisan solutions to our profound educational problems. And 
today I think you have before this committee exactly that.
    3989 and 3990 represent some of the best leverage 
opportunities to change federal education policy to increase 
the high quality of teachers by removing unproductive barriers 
to entry. We must level the playing field so that all excellent 
potential teachers, whether traditionally certified, 
alternatively certified or wholly uncertified are able to teach 
the scholars who need the most, scholars like mine.
    Some believe that our scholars are in fact the hardest to 
educate because our schools are all Title I schools. We are 100 
percent African American and Latino. Twenty-two percent of our 
students enter with special needs and IEPs. Twelve percent of 
our students enter with English language learner status.
    However working at Democracy Prep now 100 percent of our 
scholars are becoming prepared for college so they can change 
the world; and fundamentally we believe that the success of 
great schools like Democracy Prep is mostly a function of which 
adults are in our buildings, not which kids are in our 
buildings.
    We hope to see the success we have had replicated, and we 
have opened our doors to researchers from universities, think 
tanks, both conservative and liberal. And they found the same 
thing. The Democracy Prep model is affordable, replicable and 
sustainable over time.
    So, what is our secret? There is no secret. Our five core 
principles can be adopted by every school in America. We have 
more time, a longer school day, week and year. We have 
increased rigor, college prep for all scholars. We have a 
strong school culture; we are safe and supportive and joyous 
and disciplined. We use data in a robust way by offering 
frequent quantitative feedback to our teachers, scholars and 
parents.
    But most of all, the single most important thing of our 
success is our talent. In fact, the talent is what makes 
Democracy Prep great more than anything else. We lose high 
quality potential teachers from the applicant pool when we have 
provisions in place like HQT. And in fact, the people that were 
hurting are not those potential applicants, but the scholars 
most in need of excellent teachers.
    So, instead of trying to reform existing certification and 
HQT regulations, we need policymakers to relinquish this power 
to the leaders closest to the students: principals; principals 
who are in the best position to evaluate teacher candidates for 
their students. Principals in turn should be held to an 
extremely high standard of accountability for student outcomes.
    Last year across the Democracy Prep district only 18 
percent of our teachers were traditionally certified. Fifty-two 
percent were certified through a non-traditional route such as 
Teach for America, TNTP or the Match Teacher Residency in 
Massachusetts. And 30 percent of our teachers were wholly 
uncertified.
    Despite this, each of our schools continued to post 
dramatic academic gains across all grade levels and all 
subjects. Quite clearly our students did not suffer on account 
of their teachers lacking traditional HQT credentials that 
currently guide federal policy. In fact, we believe that an HQT 
and traditional certification is inversely related with teacher 
quality on the whole.
    The HQT standard practice places illogical restrictions on 
the talent pool. Under current policy, even if we could 
successfully use the House process to house all of the members 
of this committee, it is unlikely that I could hire any of you 
to teach physics or chemistry at Democracy Prep because we have 
reached the 30 percent threshold allowed under New York State 
for uncertified teachers.
    And even in my own case, despite the successes I have had 
as a special education teacher and special education 
administrator over more than a decade, I am still ineligible to 
teach in most schools in America because of certification rules 
in HQT.
    This issue is not about traditional school districts versus 
public schools. In fact, ensuring that all principals have the 
laws in place so they can recruit the best and brightest 
teachers regardless of their route to certification would 
benefit all public schools as it already does for private 
schools. We need to encourage potential teachers by lowering 
the barriers to entry and making the process simpler for 
prospective educators and for career-switching teachers to be 
even considered for a teaching job.
    Please understand, this does not mean that everyone can, 
should or be able to teach. Whether they are hired should be 
based on how suited their skills, knowledge and disposition is 
for any given school or role. High-performing schools like 
mine, if we were empowered to create our own residency based 
certification programs, I believe that could dramatically 
accelerate both the achievement gap closing work we do at 
Democracy Prep and attract stronger candidates to education and 
the pool as a whole.
    So, in summary, we believe that 3989 and 3990 would improve 
the well-intentioned but ill-conceived HQT standards. And we 
believe that policies that prioritize the credentials of adults 
over the needs of students are fundamentally backwards.
    Instead, we believe we need to roll out the welcome mat to 
all potentially excellent teachers in America, including the 
members of this esteemed committee if you would like to apply, 
and encourage you to enter the profession of teaching, while 
holding leaders accountable for the value-added outcomes of our 
scholars instead of merely the graduate school credits and 
inputs currently required under HQT.
    Thank you so much for having me here today and I welcome 
any questions.
    [The statement of Mr. Andrew follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                ------                                

    Chairman Hunter. Thank you, Mr. Andrew.
    Thank you, panel, for being here with us. I have got a very 
simple question. You all seem to agree that there are other 
routes to becoming a teacher besides the one set forth in 
federal policy. So, what is the problem? I am actually curious. 
What happened in the first place to make--to make it so you 
could not do what you are talking about doing?
    Why is there a 30 percent threshold in New York? I am just 
curious, Mr. Andrew. Why is there a 30 percent threshold in New 
York?
    Mr. Andrew. So, I am not a legislator and I cannot tell you 
the legislative intent----
    Chairman Hunter. That is why we expect honesty out of you.
    Mr. Andrew. But I can tell you that the New York State 
charter law puts the cap at 30 percent of uncertified teachers, 
and actually only five uncertified teachers per school. And so 
we maximize that limit every single year to find the best and 
the brightest.
    An amazing statistic this year is that Democracy Prep 
Public Schools had 10,000 people apply for teaching roles at 
the organization for only 200 teaching spots. So, we do not 
have a problem of quantity in and of itself.
    We have a problem of quality. And we need to find more 
quality people coming into the profession. And we need to be 
agnostic about how they got there. We need to be looking for 
the best and then recruiting and selecting the best and then 
retain them all the time.
    Chairman Hunter. Let me interrupt you. Who do you think is 
most qualified to make that quality decision?
    Mr. Andrew. I believe a principal is. A principal is the 
person in a building who knows the classroom, knows the 
students and knows the families. And that is the person who is 
most accountable for the value-added results of their scholars.
    Chairman Hunter. Let me ask you this. I think it was you, 
Ms. Mulhern, that mentioned the same statistic that I 
mentioned, that there was no statistical difference at all 
between an alternative route credential teacher and a standard 
route credential teacher. Why are things how they are? Does 
that make sense?
    Ms. Mulhern. I think in general I think what you heard is a 
sort of consensus to shift to focus on effectiveness. So, that 
is what we see time and again is that qualifications do not 
tell you very much. And it is very hard to see who is going to 
be effective in the classroom until people start teaching.
    That does not mean that how you recruit teachers and select 
teachers does not matter. It does. It is just a limited ability 
to sort of say who is going to have that positive impact on 
student achievement. And so what we feel very strongly is sort 
of given that finding we should be focused very much on 
supporting teachers in the classroom, training them rigorously, 
but then also very much holding ourselves accountable.
    So, as a preparation program we feel very strongly about 
the quality of teacher we produce and holding ourselves 
accountable for that, the impact that they have. So, I think 
that is sort of an important shift that needs to happen overall 
is the shift from focused on sort of paper qualification to the 
actual outcome.
    Chairman Hunter. Let me ask you this. If you will have some 
argue that you are not qualified to teach until you are fully 
certified to teach. So, how do you counter the argument? And 
can you point to specific results from your program which 
contradict the claim that you have to be a fully certified 
teacher in order to be able to be effective with kids in the 
classroom?
    Ms. Mulhern. Sure. So, as I shared in my testimony, we have 
been recruiting and training teachers in Louisiana and New York 
as some of our longest standing programs.
    And what we have seen in Louisiana is that our teachers are 
exceeding the results that are gotten by a whole range of 
preparation programs. And sort of the same in New York that the 
introduction of our Teaching Fellows program there has really 
been instrumental to diminishing the gap in both performance 
and just in general background of access to high quality 
teachers there.
    I think what we really focus on is first having a very 
rigorous screen up front. So, really looking up the attitudes, 
the skills, the expertise needed to be successful. We think 
about that in a couple of ways.
    First, it is what does it take to be a successful 
professional in general, sort of focus on achievement, real 
sort of commitment to learning by all kids? We also really push 
that folks have a real content expert so they really know and 
understand math if they are going to teach math for example.
    And then as we begin our pre-service training program, we 
do a couple of things. We focus very specifically on a set of 
skills that we think are essential to launching very 
successfully in the classroom. So, we really focus with our 
teachers on how they manage time, how they engage students. In 
particular are core skills that we think new teachers need.
    And then what I think makes our program unique is that 
before the end of pre service training we assess our teachers 
for their mastery of those skills. And teachers who have not 
demonstrated mastery do not move into the classroom in the 
fall. So, I think that is something that makes us unique that 
at each point in time we are really looking at quality and then 
holding ourselves accountable for teachers' ability to meet 
that bar.
    Chairman Hunter. Thank you.
    And I am out of time. I would like to yield to Mr. Kildee, 
ranking member from Michigan.
    Mr. Kildee. Thank you, Mr. Chairman.
    First of all, a statement; I am leaving Congress this year 
after 36 years of service. It is the longest job I have ever 
held. I taught school for 12 years. But I am encouraged by the 
fact that we have in this committee some great people on both 
sides of the aisle. I am going to just mention one.
    Judy Biggert has shown great love, great knowledge and 
great support for education, a real depth of all three of 
those. Both here in Washington, D.C., but also back in Illinois 
where she served in the Illinois House of Representatives.
    And it is a pleasure to have her here in this group because 
we kind of like one another. We disagree on certain things. But 
we all like education. And frankly, we like one another. We get 
along quite well, very well here. And Judy Biggert is an 
example of that. I just wanted to mention that.
    Mr. Andrew, Mr. Banta, and Ms. Mulhern or anyone else, many 
alternative route programs prepare teachers for shortage areas 
such as special education. Special educators require extensive 
preparation to learn both content and strategies for 
intervention.
    When I taught we were not doing much at all in special 
education. I would try to devise on my own ways. What can those 
who are involved in teacher preparation either through the 
traditional route or other routes do to help those who will 
maybe be involved in special education? We will start with Mr. 
Andrew.
    Mr. Andrew. Well, thank you, Ranking Member Kildee. This is 
very important to my own history. So, I have a learning 
disability and went through the New York City Public Schools 
with an IEP. And so from K to 12 finding great special 
education teachers is hard. And you needed to find somebody who 
really understood what dysgraphia was and how to work with it 
and how to handle that.
    So, it is a thing very near and dear to my heart. And when 
I became interested in teaching after both my bachelor's and 
master's degree in education, but not in a teaching program, I 
actually still was not certified to teach. And so I was able to 
enter TNTP in Massachusetts at the time to get my alternative 
certification in special education. And that is the route that 
brought me into special education and also gave me that 
commitment to continue that work when I opened Democracy Prep 
to serve a disproportionately high number of special needs 
kids.
    So, the question really is not exclusively about pre 
service training. It is also training in service. So, at 
Democracy Prep we provide our teachers with about 300 hours 
every year of high quality professional development over the 
course of the year, the course of the summer to make sure they 
are continuing to grow in their skillset and develop new skills 
and new tools.
    That is especially important for special education teachers 
who are serving some of our most challenging students, and the 
ones who do not fit into the box very easily. And so you have 
to try different strategies and new out-of-the-box strategies 
for them. And I think actually having alternatively certified 
teachers and even uncertified teachers to provide services for 
students who think differently and behave differently and act 
differently is a very good way to get the right people with the 
kids that need the most.
    Mr. Kildee. Thank you very much.
    Ms. Banta?
    Ms. Banta. Well, I think Mr. Andrew answered the question 
very well. I think it is really what happens once they are in 
the classroom. At the IBM program, as I mentioned, it's focused 
on STEM teachers. But whether you are a STEM teacher, French 
teacher or art teacher, the--also focusing on children with 
special needs both in your preparation and then what happens in 
the classroom is critical.
    And I think in my own state, in fact I do not think. I know 
in my own state there is such an increased focus on this, as 
well as the need of English language learners, that we are 
getting much better than we were--than we did years ago. I hope 
you are going to go back into teaching when you leave 
Washington.
    Mr. Kildee. Well, that is an alternative I am considering 
if somebody will hire me.
    Mr. Andrew. Come to Harlem. We will have you.
    Ms. Banta. I am bidding in Massachusetts.
    Mr. Kildee. Ms. Mulhern?
    Ms. Mulhern. So, when our teachers enter the classroom they 
enroll in TNTP Academy, which is our certification program that 
is a curriculum that is designed to both teach our teachers as 
well as really embed them in the content that they are 
teaching. So, they are taught by existing teachers who are 
particularly high performing. And so we really focus the way we 
train our teachers embedded within content.
    So, for our special education teachers there are core 
things, as has been said, that you need to be able to do for 
all students like planning, assessment and all of those sorts 
of pre key skills, and really as you think about instruction. 
But I think that what makes it unique is that we embed our 
instructors in that content and really embed our seminars 
organized around how do you teach special education, how do you 
teach math to them? We try to bring the two together in how we 
train teachers after the school year starts.
    Mr. Kildee. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Hunter. I would like to thank the ranking member. 
I would now like to recognize the chairman of the full 
committee, Mr. Kline, for 5 minutes.
    Mr. Kline. Thank you, Mr. Chairman. Thanks to the panel for 
being here. Great testimony today; sounds like we are largely 
in almost violent agreement today. That does not always happen 
here.
    I am struck. I thought for many years that we have somehow 
been missing the boat in the so-called traditional role of 
getting certified teachers because it always seemed to me it 
would be so much better if you had someone who had a deep 
understanding and a love of mathematics, for example, and 
wanted to share that, than a certified teacher who did not 
really much care or like math and had no ability to share that 
love.
    So, I find it not surprising, but terrifically interesting 
when you look at Democracy Prep, for example, where you have 30 
percent of your teachers are wholly uncertified and 52 percent 
had alternative certification through Teach for America or 
TNTP. And yet you are having these fantastic results.
    Wonderful scholars, some of which you brought today. And 
thank you for doing that. And in fact, your testimony here 
today and your success makes me wonder if we should not go back 
to the speaker and bring the page program back. It seems to 
have been worked out pretty well for you.
    So, let--I do not know. Ms. Mulhern, you talked about how 
you are making sure that your teachers are going to actually be 
able to perform. But clearly we have some really diverse groups 
of students that are everywhere. Students with special needs, 
and Mr. Andrew talked about that and his own challenges.
    A lot of English language learners. I know in Minnesota we 
have in some school districts students with--they have over 20 
different languages that they are trying to deal with. How do 
you specifically prepare your teachers to deal with that?
    Ms. Mulhern. Sure. It starts with a couple of things. First 
during the pre-service we focus very hard on practicing. So, we 
focus on being able to engage students, which is at the core of 
being able to teach. And is equally applicable for all kids and 
especially important for special needs kids as well.
    So, we work very hard at sort of deep practice at a set of 
techniques with our teachers, and just repeat and repeat and 
repeat because what we have found, as is true of much in life 
that practice makes perfect. So, we really bring that approach 
to training during the summer in getting our teachers ready.
    During the school year very much focused on the content 
piece is what we find as being able to be very effective is 
really knowing content very well. And that is critical to being 
able to reach out, in particular to special needs populations 
as well.
    So, we again we match teachers who are in our training with 
content experts as their trainers. And then we have a pretty 
intensive coaching model throughout the year where our teachers 
are working with coaches, and where our coaches are both 
observing the progress that they are making as well as giving 
them feedback.
    So, we work very closely to make sure that our teachers 
have the ability to take feedback and very rapidly put that 
into the field with their students so that what we really are 
looking for is ability to rapidly sort of get off to a very 
quick start and then improve very quickly based on feedback.
    And then the last piece that we do to sort of really focus 
in here is that we both hold ourselves accountable as a program 
and also hold our teachers accountable. So, we look and observe 
our teachers regularly on a set of skills that we think are 
essential, especially being able to engage students and be able 
to work with diverse needs of students. And so our teachers 
know that they are going to be held accountable for them. And 
that is something that we, when we are conducting our 
observations, look at very closely.
    Mr. Kline. What does hold accountable mean?
    Ms. Mulhern. So, one of the unique things about our program 
is that given that we are a--we do certify our teachers at the 
end of our training is that we are able to use our 
certification as truly a high bar. So, we are able to see 
actual performance before we give people a certificate, meaning 
before they are able to then continue teaching for a career in 
the classroom.
    And so we use what we call the Assessment of Classroom 
Effectiveness to measure our teachers' impact at the end of the 
first year of teaching. And only teachers who meet our bar are 
recommended for certification.
    Mr. Kline. Thank you.
    I see my time is about to expire. I yield back.
    Chairman Hunter. Thank the chairman.
    I would like to recognize Mr. Scott for 5 minutes.
    Mr. Scott. Thank you, Mr. Chairman.
    I thank the witnesses for their information. We all want 
better teachers. And it has always occurred to me that if you 
want a better quality workforce one way to do it is to pay them 
more and the problem could probably cure itself if we had the 
salaries commensurate with what we are looking for.
    Ms. Banta, one of the things that I did not hear from your 
testimony is what happens to the IBM employees who start 
teaching. What happens to their salary when they take a 
teaching job?
    Ms. Banta. Thank you for the question. They become 
classroom teachers of record. So, they officially separate from 
the IBM Company. If they are doing their student teaching we 
continue to pay their health benefits. Therein lies the crux. 
So, they might be moving from an engineering job to a $40,000 a 
year salary.
    Mr. Scott. And what does the engineering job pay?
    Ms. Banta. It depends. It could be anywhere between 
$60,000, $80,000. It could be more than that.
    Mr. Scott. So, we expect $60,000 employees to work for 
$40,000 and think we are going to solve the problem?
    Ms. Banta. We think that it is--teaching is a vocation, 
that it is not for everyone, and that you have to be at a 
certain point in your life when you decide to have a second 
career in teaching. We developed Transition to Teaching because 
we had a number of employees and focus groups telling us they 
wanted a second career in teaching.
    So, they had thought about this. And we decided that this 
was the best contribution we could make by enabling them while 
they were still at IBM to become certified, or allowing them to 
leave and use an alternative route to certification.
    Mr. Scott. Do you think that you might not have had the 
problem if the school system was paying the $60,000 that you 
were paying them?
    Ms. Banta. I think you are referring to the big study Tough 
Choices. And if I had my way, we would pay a lot more in the 
front end and less in the back end and we might change the face 
of teaching.
    Mr. Scott. Thank you.
    Mr. Ayers, did I hear you say that there might not be 
enough barriers to teach certification?
    Mr. Andrew. No. I believe we need to reduce the barriers to 
entry to the profession of teaching. And the reason is because 
there are great teachers who are not coming into the profession 
when they should. And it is not exclusively about money.
    Mr. Scott. Well, Mr. Ayers, I think I was quoting----
    Mr. Andrew. Oh, I am sorry.
    Mr. Scott [continuing]. Mr. Ayers in saying that. What are 
the courses in process of certification and the traditional 
route that is not necessary?
    Ms. Brown. Well--I am going to try and answer. We do not 
have a very good system of traditional education of teachers. 
It is done through big public universities. And generally 
speaking they do not have tough admission standards into who 
they let into the study for teaching. So, that you have a very 
uneven quality of teacher preparation programs.
    And you often--sometimes you have people who spend their 
whole teacher preparation program in a school of education with 
not very much content education. This then becomes problematic 
when you are asking people to go teach in science and math and 
they have not been properly prepared.
    Mr. Scott. Well, you could have somebody who knows math 
very well but just does not know how to teach. How hard is it 
to learn how to teach?
    Ms. Brown. It is--that is a skill also, and so that is what 
these programs are doing, working with people who have the 
content expertise and helping them get the instructional 
strategies to help them be effective in transmitting their 
strong knowledge.
    Mr. Scott. Now, if you are teaching--if you are teaching 
middle school math does it make much difference whether you 
have a bachelor's degree in math or a master's or a Ph.D? Or is 
it more important that you know how to teach?
    Ms. Brown. I will ask these educators.
    Ms. Mulhern. So, what the research shows is that how you 
enter the profession does not impact effectiveness overall. So, 
what we know from sort of the big picture studies is that there 
is not an outcome difference there. I think clearly teaching 
skills are incredibly important.
    So, we spent a lot of time building our selection process 
looking at what we think are the traits that make successful. 
We spend a lot of time before they enter the classroom training 
them on what we think are foundational teaching skills, and 
then a lot of time coaching once they are in the classroom. So, 
they are equally important and essential. But that sort of 
ability to know who is going to be able to bring those two 
things together, which are the keys to learning----
    Mr. Scott. Is there a difference----
    Ms. Mulhern [continuing]. Is something that you cannot----
    Mr. Scott. Is there a difference in effectiveness depending 
on what kind of population you are teaching?
    Ms. Mulhern. Not based on the research we have seen. When 
you look across the board at different demographic data that 
same----
    Mr. Scott. A good teacher is a good teacher.
    Ms. Mulhern. That is right.
    Mr. Scott. Is that consistent with all of the witnesses?
    Ms. Brown. Yes. That has been confirmed by recent research.
    Mr. Scott. Thank you, Mr. Chairman.
    Chairman Hunter. Thank you, Mr. Scott.
    Mr. Petri is recognized for 5 minutes.
    Mr. Petri. Thank you. And thank you all for your testimony. 
I cannot help but reflect that this problem of credentialism is 
not restricted to the teaching profession. I think there was a 
recent study that over the last 50 years, dozens if not 
hundreds of professions have suddenly required standards and 
certification of one kind or another to do beautician work or 
you name it.
    Almost every group seems to want to form an association, 
and then the association lobbies state legislators to restrict 
access to that in hopes of raising the pay, and hopefully 
improving the quality of service to the public. At least that 
is the argument that is usually made.
    But in your--all your testimony indicates that 
credentialism in and of itself is not the answer, as best as I 
can tell; that we really need to be focusing more on outcomes 
and trying to have a more dynamic system. What can we do at the 
federal level to deal with this I guess basic human instinct to 
band together and to restrict access to your profession?
    It is not just the teacher organizations who I am sure are 
lobbying often at the state level. What is it really we can do 
on this? We did--we have a program that encourages charter 
schools nationwide. But then that as it goes through the state 
legislature gets tacked onto it various riders.
    Should we be partnering with the teachers organizations 
more in trying to get them to take the lead? Individual 
teachers really do like continuous improvement and advising and 
in-school training once they are credentialed. But a lot of 
able people do not want to go through the credentialing 
process. And it really does affect who gets into the 
profession.
    That is sort of an open-ended question. What we can do 
about this most of the action is at the state level. And even 
if we do come up with regulations, might it not be taken over 
by the people who we are trying to--who put in the closed 
system that we are trying to open up? Does anyone have any----
    Mr. Andrew. I will just say that one of the big ideas, and 
charter schools have been mentioned a number of times, about 
charter schools is that it is a small percentage of the total 
number of schools and students in the country. But the concept 
behind charter schools is to trade autonomy for accountability, 
and to hold the schools and school leaders like me accountable 
for results and outcomes, but give us the autonomy to make 
decisions about who we have in the building, who we let go, the 
processes.
    In fact I was going to tell Mr. Scott that we start our 
salaries at $65,000. That is a starting lead teacher salary at 
Democracy Prep. Our highest paid teachers can make more than 
six figures after just 5 years. So, what that means is that we 
are recruiting the best. But I have the autonomy to set those 
policies that are right for my schools and my students in 
Harlem, which may be different from those across the country. 
And so the tradeoff of autonomy for accountability is one that 
I hope you find central.
    And the second idea is at the federal level, when you look 
for reform, you are very often going to miss the mark because 
it is just not what is happening in real schools and real 
classrooms. And so instead of reforming, I would hope that the 
committee and others look to relinquish; to relinquish those 
powers, those decisions to schools, school leaders, states, 
districts, LEAs to make the decisions closer to the children 
instead of in Washington.
    Ms. Brown. You have been taking some actions. What you need 
to do is make HQT a minimum and instead focus on teacher 
evaluations as a part of the accountability system that is 
built into ESEA once you reauthorize it. And these are 
important conversations. You do not have to be terribly 
descriptive about it, but you do need to--the federal 
government sending a message about the importance of looking at 
outcomes is powerful. And you are starting to see that change.
    Indeed, the unions are talking about evaluations and about 
professional development based on evaluation results. So, I 
think--I think the federal government can have a huge influence 
without being stifling in the way Mr. Andrew outlined.
    Ms. Banta. I would just add that at 50,000 feet you can 
continue to honor the profession. It is the profession that 
creates every other profession. So, making it more fluid to get 
into it, particularly as a mature adult would be helpful; and 
recognizing and having firsthand knowledge of TNTP, Teach for 
America, Mr. Andrew's models, those are all important things 
the federal government can do.
    Mr. Petri. Thank you.
    Chairman Hunter. I thank the gentleman.
    I recognize my friend and colleague from San Diego, Mrs. 
Davis, for 5 minutes.
    Mrs. Davis. Thank you, Mr. Chairman.
    It is good to have all of you here. In many ways I think 
what you are talking about is raising the bar and lowering the 
barriers all at the same time. So, that is a challenge that we 
have to face.
    One of the things that you have not spoken about, with the 
exception of Mr. Andrew as the superintendent, is I am not sure 
that there is a federal role in terms of setting standards for 
principals, for instructional leaders. But in everything that 
you have spoken about, and certainly when we talk about teacher 
evaluations, which I believe are critically important if they 
are done right with the right kind of input from teachers.
    How do you get to that, because a lot of principals come 
out of the teaching profession, but not all? That does not 
necessarily make for the best instructional leader in all 
cases. How can we do something about that? Or is there a 
federal role at all?
    I think what you are saying is you want to in some ways get 
out of the way, not try and necessarily be reforming it. But in 
your experience, how do we get to that place? Because as I go 
around, and having been on a school board for a number of years 
in San Diego and continue to go to schools, when I see change 
at a school, I see some great teachers. But it is that 
instructional leader that has really made the tremendous 
difference.
    So, where does that fit into what you are talking about? 
And particularly from a federal role, because what we are 
trying to do is obviously spread out--spread out the 
opportunities across the country really to scale up to the kind 
of basic I think qualifications and programs that make 
difference. Help me out there.
    Ms. Mulhern. I think that you can start by focusing on 
effectiveness as sort of the crucial set of information that we 
need to know at every level. So that is why we focus on it at 
our programs. But I think it would be great if many more 
programs were sort of equally measuring their outcomes, and 
really at the individual teacher level, both using that 
information so that they can hold themselves accountable. But 
also so that it is really used in a developmental way with 
teachers so that they are getting that feedback.
    Mrs. Davis. Is there a federal role in that in terms of 
providing a platform for that kind of----
    Ms. Mulhern. I think they are sort of setting the standard 
there, right. So many states as a result of federal studies 
have implemented teacher evaluation systems. So, I think that 
is sort of an analogous role where many states have now adopted 
state evaluation systems that are creating this kind of focus 
on effectiveness and that kind of information at the individual 
teacher level so that you can both help teachers develop and 
also obviously hold folks accountable for outcomes for kids.
    I think that that has sort of been a good template for the 
federal role. And as you think about sort of the preparation 
end of it, you could have a similar role where you really focus 
on the outcomes and say we are going to hold programs 
accountable to the outcomes that they are achieving.
    Mrs. Davis. Thank you.
    Ms. Brown. You also need to emphasize principal 
evaluations. Principals make a huge difference as you said. 
Now, in the school improvement----
    Mrs. Davis. That is part of--I know in our legislation it 
certainly included principals. But again that is't going 
anywhere----
    Ms. Brown. Well, it is very important the evaluation of 
principals to be really strongly emphasized. First of all, it 
sends a bad message to teachers if they are the only ones being 
evaluated and their principals are able to go forward without 
any consequences for you know ineffective behavior and 
leadership. On the SIG program you do have some of that, the 
School Improvement Program where principals are removed in some 
cases.
    But there needs to be more incentive for looking at the 
qualities of principals. Principals need to be held accountable 
for how their whole school does, and that means responsibility 
for all their teachers.
    Mr. Andrew. As a principal I think that the best principals 
want to be held accountable for the performance of their 
students and the value added performance of their teachers and 
students. And so we need to build in incentives at the federal 
level to make the best teacher training and principal training 
programs supported and grown. So, what we saw with i3 and in 
race to the top were the incentives were in place for similar 
programs.
    I did a leadership training program called Building 
Excellent Schools, which is a phenomenal leadership training 
program that got me ready to be a principal after having 
taught. And it was the thing that transformed me into a good 
leader.
    We need federal incentives to help create more programs 
like that without, as you say--you know we need to raise the 
bar and lower the barriers at the same time. And I think 
creating the incentives without putting the onerous burden on 
the inputs is the best way to create that balance.
    Mrs. Davis. Thank you.
    If I have just another--I guess I do not have another 
moment. Okay. Maybe there will be another round. Thank you.
    Chairman Hunter. You really do not. Thank you, Mrs. Davis.
    I would like to recognize Mrs. Biggert for 5 minutes.
    Mrs. Biggert. I thank the chairman. And I certainly thank 
my good friend and colleague for his kind words. We have worked 
a lot together and I know that we are all going to miss him if 
we are still here in the next term because he has been such a 
part of this committee and is an important part of this 
committee, and has given such value to the committee.
    So, I thank you. And now I have to live up to this by 
asking a good question. It is hard to do.
    You know I think that education certainly is the most 
important role that we have, and that is to provide education 
to these kids so that all of our problems, our challenges 
could--a lot could be alleviated if everybody really got a good 
education and could work to be successful.
    And I think that we are seeing a change, I think across the 
country in looking at this. I know the sciences were ranked 
what, 28th in the world. I think Finland is number one. And we 
just have to change that if we are going to compete in this 
global economy.
    And I think that some of the schools, for example there is 
Aurora University of Illinois that has really developed a 
program for STEM. And they have two things that they have 
developed and one is traditional post baccalaureate 
certification only program for elementary and middle and high 
school teachers who want to--they have already received the 
bachelor's degree, but they want to improve themselves in 
another subject area.
    And so they can take 32 credit hours of classes to 
complete. And that takes two summers plus one full year. And 
they meet at night once a year so that they can continue 
teaching but get that.
    And second, probably more important to this discussion is a 
content based master's degree program in STEM. And this 
requires 40 credit hours to complete. And they partner with 
local research facilities like Argonne, National Lab, Fermilab, 
Caterpillar a company, and then another Packer Engineering 
company to provide real life experiences and application of 
various STEM subject matters. And I think this is so important 
whether it is a traditional or whether it is an alternative and 
how much this clinical experience that everybody has too.
    And I know that you had--there are a couple questions on 
retention. Ms. Banta, I think you talked about--you mentioned 
the retention, but you did not talk about how--what are the 
numbers in that with your 31--well, maybe it is only the 31 
former employees that are still there.
    Ms. Banta. We expect another 12 to enter the classroom in 
September. And we have lost two teachers. And in both cases it 
was because the jobs were eliminated. There are some states, 
believe it or not, who do not need STEM teachers. Vermont is a 
good example. They have a glut of math teachers. So, I am 
learning a lot about supply and demand managing this program.
    Again, the feedback both from the teachers and from the 
principals is just over the top. It is just--you know they are 
applying all of what they learned at IBM as managers, as 
parents in their content field. They are excited about it. They 
are energetic. Some of these folks are as young as 31 or 32 
because they have only been with IBM 10 years or more. Others 
are closer to 60, and there is really no difference in terms of 
their performance in the classroom.
    Mrs. Biggert. Has anybody seen the urban teacher resident 
model that has been put into the traditional----
    Ms. Banta. Like the Boston Plan for Excellence, BPE. I am 
actually on the board of the Boston Plan and I love that model 
or I would not be on their board. And they--actually one of my 
IBM executives went through BTR training to be a math teacher 
in Boston.
    Mrs. Biggert. So, again, that is a year-long program----
    Ms. Banta. It is terrific, yes.
    Mrs. Biggert. And so this can be really either in the 
traditional or in the alternative too.
    Ms. Banta. Most of them use the alternative pathway because 
they find that being treated like a first--you know, an 18-
year-old is too hard. Those that take 3 or 4 years to get 
certified will take different courses. But especially in places 
like Texas they use alternative certifications, same in North 
Carolina. And many of them use a program that you described, a 
MAT, a 1-year master's after their baccalaureate.
    Mrs. Biggert. And you think that, Ms. Mulhern, that there 
really is adequate clinical practice which is critical for 
teacher preparation?
    Ms. Mulhern. I do. And I also think to the retention 
question what we see in our programs is that our retention 
looks as good as sort of the national urban average, and by 3 
years we are actually outperforming it in terms of who stays. 
And what we find is it is pretty critical to not be that as a 
single number. And that is why we sort of have this 
certification screen where we hold ourselves accountable. 
Because what we really want is the right teacher staying. And 
so we focus very hard at that.
    So, both at the end of our pre service training we screen 
our teachers to make sure they are meeting our bar and then 
again at the end of the first year because obviously retention 
is just a single number and it is about holding onto the right 
folks and we try to do that at both those points.
    Mrs. Biggert. Thank you. I yield back.
    Chairman Hunter. Thank the gentlelady.
    Ms. Woolsey is recognized for 5 minutes.
    Ms. Woolsey. Thank you very much, Mr. Chairman. And thank 
you to this, our panel of witnesses. We obviously are all on 
the same song sheet with this one.
    I want to tell a story when we are talking about bringing 
mature, experienced teachers--experienced professionals in 
business teaching profession. And it is personal.
    I have been here 20 years. So, it has been at least 20 
years, probably 25 years ago. And I was the human resources 
director for a high tech company that started with eight 
people. I was number six, and we had 800 eventually before I 
left. So, I did a lot of management training and bringing 
people along. And I knew my subject.
    So, two of our schools, one was a community college and the 
other was a university, asked me to come and do guest--not 
guest speaking, but guest classes for a whole class. Well, I 
was very good on the platform. I knew my subject. But I did not 
know how to teach, and I did not know how to write a test.
    I would write tests where yes and no on a--are true and 
false on a true and false question were both right. Yes. I mean 
that--and not one, but two on one test. I mean only Lynn 
Woolsey could do such a thing. But it was true. I did--nobody 
had taught me and I tried. I was working hard at doing this 
right.
    I did not hurt my students because they were adult students 
in the first place, and they were not all afraid to challenge 
me on this, and we fixed it of course. But there is something 
about bringing an expert into a classroom no matter how they--
good they are in their subject that has--there has--they have 
to learn how to teach and how to evaluate and how to reward. 
Because otherwise just bring them in to be the, you know 
experts. That is good, but the rest of it is important also.
    So, that was this whole story about STEM program. I am the 
author of Go Girl. Before we even started talking about STEM I 
had brought Go Girl here to the House because I wanted girls 
who were not--were dropping out of math and science classes to 
get involved and stay involved after the 6th and 7th grade, and 
their parents.
    So, we put a lot of energy into that. And I would get on 
the elevator and particularly my Republican friends would all 
call out ``go girl'' the minute they would see me. But I loved 
it. I knew they got the deal.
    Well, now I have expanded that to girls and underserved 
populations. So, I really want to talk to you about, Ms. Banta, 
about who--what happens and who suffers when we do not put that 
extra energy into our young people. Because it is chicken and 
egg; we cannot have good instructors if we do not--teachers if 
we do not have students interested in the first place. So, 
where are we going to go with that? It just seems like a closed 
circle and I am worried about it.
    Ms. Banta. Sure. So, we worry about it a lot as a company 
as well. And we are very excited when a lot of our Transition 
to Teaching participants are women, women of color who have 
STEM backgrounds and make it come alive. And you are absolutely 
right. They need to learn the pedagogy of how to teach.
    We run camps at IBM for middle school girls in math and 
science, that we have lots of mentoring relationships. So, we 
really try to encourage young women. I would be the first to 
admit I failed with my own daughter. She was good in math. I 
had her on the right track. And then English and Spanish 
grabbed her head.
    But I totally agree with you. When we are very focused both 
in the young females and communities of color to try and make 
sure more students stay that way. We really believe it is tied 
to relevancy. If they can see why it is important to understand 
algebra, if they can see physics in practice, they are going to 
get excited about it. So, put the relevancy back in education. 
You will have more children----
    Ms. Woolsey. And from relevancy into these video games 
because girls are just not that interested in cutting 
somebody's head off.
    Ms. Banta. That is true.
    Ms. Woolsey. And having competition. So, we need to get 
there with that also, and bringing parents along. I mean, there 
are generations of parents who would not know to support their 
daughter or their son in this field. Are you doing anything 
about that?
    Ms. Banta. Well, we try and spread the message that it is 
not for other people's children; that all parents need to be 
focused on their children staying with STEM disciplines. And we 
involve them in the camps. But there is not a particular 
effort----
    Ms. Woolsey. Well, that is an effort. Thank you very much.
    Ms. Banta. Thank you.
    Chairman Hunter. Thank the gentlelady.
    And I would like to recognize Mrs. Roby for 5 minutes.
    Mrs. Roby. Thank you, Mr. Chairman. And I apologize for my 
less than graceful entry this morning.
    I appreciate you all being here very much and all of your 
testimony about this issue today. And Mr. Andrew, if you can 
just highlight for us the Highly Qualified Teacher provision 
that we are working under, under the current law under No Child 
Left Behind. Talk to me about how that equates to measurable 
effectiveness in the classroom.
    Mr. Andrew. So, we believe that HQT is, if anything 
inversely related to high quality in the classroom. So, what we 
are looking for is outcomes in the classrooms of our teachers 
and of the student performance. And so HQT is really not a 
factor in the way that we select, recruit, retain teachers at 
all. It only becomes a barrier for us and a bureaucratic hurdle 
we have to face.
    So, one of the things that we hope is that in the future we 
will be able to select from a wide pool of candidates and then 
go through an incredibly rigorous screening process before they 
even get in front of a student for a sample lesson. And that 
process includes interviews and activities and a sample lesson 
is the sort of culmination where we think somebody is ready to 
handle being in front of our teacher--our students.
    Many of those teachers are not in fact at the time meeting 
HQT definition. Then we have to go through a process, the House 
process to identify whether or not they actually are HQT and 
what caused them to get there. So, really for school leaders it 
becomes more of a burden than a benefit.
    Mrs. Roby. Thank you for that. And it was brought to my 
attention in preparing for this hearing today about in 
Montgomery, Alabama where I am from we have recently--the Board 
of Education has approved a contract with Teach for America. 
And it has been highly successful in other areas of the state. 
And over the next 3 years there will be 45 teachers brought to 
work in our school system.
    And you know in our school system in Montgomery County this 
could prove to be highly beneficial in certain schools within 
that district. And so I just want to again--I know we have kind 
of touched on it. But if you could--and this is for any of you, 
be very specific about you know is there evidence that shows 
that teachers that have gone through these alternative 
certification process or routes are less effective in producing 
positive outcomes.
    Anybody can answer that or all of you.
    Ms. Mulhern. Based on the evidence----
    Mrs. Roby. A resounding no.
    Ms. Mulhern. I think in our programs what we see is that 
our teachers are able to meet or exceed that standard in the 
programs that we are running. So, we do not see evidence of 
that. And to your question about HQT, I think what is essential 
is that alternative route programs are able to continue and 
also really be measured by the outcomes that they achieve.
    Mrs. Roby. And is there any--I mean, on the flip side of 
that point, is there evidence that shows that teachers that 
have gone the traditional certification process are more 
effective?
    Ms. Mulhern. What we see in the evidence is that often they 
sort of produce equal outcomes. And so overall what I think you 
have heard sort of a theme here today is that we should not be 
focused on one versus the other, but on the outcomes that they 
are getting. And so really focusing on what the programs are 
getting, those outcomes are doing well and sort of using that 
as a basis for building the field.
    Ms. Brown. The truth is that--the truth of the matter is 
traditional programs and alternative certification programs are 
very uneven in quality. And that is why we need to move to a 
system of judging the quality of preparation programs, whether 
they are traditional or alternative. Some are great. Some are--
those that are not good should either be forced to improve or 
shut down.
    Ms. Banta. I would just add that in both cases participants 
should be encouraged to spend time in the schools of today. 
Some of them, they think they want to go into teaching; they 
are 18 years old. But they really should not go into teaching. 
Some of them are 40 years old and they think they remember what 
school was like and they probably should not go into teaching 
either. So, we really emphasize spending time in schools before 
you choose either route.
    Mrs. Roby. Well, thank you again for being here.
    And Mr. Chairman, I yield back.
    Chairman Hunter. Thank the gentlelady.
    I would like to recognize Mrs. Davis again.
    Mrs. Davis. Thank you, Mr. Chairman. I appreciate that.
    It would be difficult for me to sit here and have this 
wonderful group without asking you a little bit about National 
Board Certification. And having worked with that over the years 
I know obviously we are talking about teachers that have 
already been in the classroom. They cannot go for that unless 
they have been teaching for at least 3 years.
    But what I have seen is that there are ways in schools, and 
I have seen this in San Diego State University and National 
University in San Diego where they try and embed the program 
for National Board Certification into early training of 
teachers so that there is kind of an expectation and a rigor 
and a way of sort of evaluating your progress and then being 
able to get that certification if in fact teachers wish to do 
that.
    It seems to me what we are trying to do is find some way, 
and again not necessarily relinquishing the federal role, but 
to try and have a standard out there that states can look to or 
localities can look to. Could you--without necessarily 
evaluating the program per se. I am just wondering what your 
thoughts are about that, and if in some way that provides a 
model for the country or we could use some of the ways in which 
teachers move forward with National Board Certification to have 
a greater role, I guess, in trying to establish what is it that 
good teaching really looks like.
    Ms. Brown. What we really need to do is to build a system 
of career ladders for teachers, increasing responsibilities for 
those who are most effective. And having a National Board 
Certification--Shaw was a teacher--is a master teacher, is very 
effective. And it becomes a credential then for school 
districts to use when they decide that they want to set up 
career ladders with differential pay. Teachers who take 
additional responsibilities should be paid more. But you want 
to make sure they are effective, and I think the National Board 
provides a good standard.
    Mrs. Davis. Anybody else want to--any other observations? 
No.
    Ms. Banta. I think you make a very good point. That is what 
we are trying to do. We are not trying to be Washington heavy, 
but we do need to come up with some standards. You can either 
start with the evaluation part or the standards, but the two 
are--they are linked.
    And you made a lot of points in your previous comments 
about the role of the leader, of the principal and how critical 
that is. I totally agree that unless we really have some models 
for--we have standards for principals and we have models for 
evaluation then everyone is going to roll it on their own. And 
they may roll a good model, and they may not. So, I----
    Ms. Brown. The other thing is that you have taken action to 
simulate this kind of change into career ladders with the 
Teacher Incentive Fund, the Teacher Leader Incentive Fund, 
which will incentivize school districts to move to new ways to 
setting up their human resource around teaching and principals.
    Mrs. Davis. Unfortunately, as you know, at some levels, 
while they had provided some incentives, monetary incentives in 
many cases, budget constraints that means that you pull those 
out. But what I have found is that even absent the monetary 
incentives that it is still something that people want to do, 
that teachers want to do. And I think it is partly because it 
gives them an opportunity to play another role at that 
particular school.
    That does not mean that 100 percent can play it well, even 
among their colleagues. But I have been a big supporter and I 
know that it is not a panacea either. But I think we need to 
try and at least look to something that has been tried 
throughout the country, and has had some really good and 
positive results in terms of outcomes for children, not 
necessarily the outcomes for the adults.
    Ms. Brown. There have been a few disappointments. Not 
enough of the board certified teachers going into the most 
challenging schools.
    Mrs. Davis. Right.
    Ms. Brown. And that is where we need our most talented 
teachers. And if there is a way to help support the board to 
direct teachers in that way, I mean that would be a big benefit 
for the kids that need the most help.
    Mrs. Davis. Yes. I agree with that, and it has been coupled 
with legislation but not necessarily always moving forward.
    Thank you very much. Appreciate it.
    Chairman Hunter. Thank the gentleady.
    Mrs. Foxx is recognized for 5 minutes.
    Mrs. Foxx. Thank you, Mr. Chairman. And I want to thank all 
of the panel for being here today. And I agree with 
Congresswoman Davis, having observed a lot about the National 
Board Certification process in North Carolina. I think we have 
the second highest number of teachers who have gotten National 
Board Certification. And I think it has been a good program. 
And I think a lot more research needs to be done in what has 
worked, where those folks go, how they use their talent.
    It seems to me that it is asking a lot though sometimes of 
them to take on additional challenges in terms of going into 
the most difficult schools because they have gotten a lot of 
preparation, worked very hard and want to be able to use all of 
their skills as best they can. And they do not always get the 
best support in those schools.
    Mr. Andrew, I would like to bring up an issue we talk about 
a good bit here, and that is the disagreement about who should 
be responsible for education policy, the federal government or 
the states and the school districts.
    Could you give us your opinion on the federal Highly 
Qualified Teacher provisions? And what value or bearing do they 
have on the effectiveness of a teacher in the classroom? Do you 
think that most states or districts are equipped to make 
decisions about teacher qualifications, licensure and 
certification for entry into the classroom?
    Mr. Andrew. So, I think with the right structure of 
accountability for principals then the incentives are properly 
aligned to have a principal identify the highest quality 
teacher be agnostic to the route of certification. And so if we 
had the authority as a public charter school district to 
certify our own teachers, then certification might mean 
something to me. But until we can be confident that the actual 
piece of paper that it is written on is worth value to our 
students, then it does not impact.
    I have a couple of my students with me and we were on the 
train on the way down. And I was thinking about Representative 
Woolsey's comment. I asked my students a little bit about their 
favorite teachers. And Jamie said, oh Ms. Hurlihy. She is a 
10th grade chemistry teacher at Democracy Prep. And she is 
wholly uncertified.
    She does not have a piece of paper that says that she is a 
great chemistry teacher. And yet she is one of the best 
chemistry teachers and has led to some of the highest 
performing results in the state of New York on the chemistry 
reagents exam.
    And so what I am looking for is excellence in outcomes, not 
in inputs. And so in finding people like Ms. Hurlihy who are 
just spectacular, we are able then to put the best people in 
front of the students like my guys in Harlem.
    Mrs. Foxx. Great perspective. I have always said that in 
any elementary school you could ask almost all the second 
graders and they could tell you who the best teachers are in 
the school. The word gets around pretty quickly as to who the 
good teachers are. You do not need tremendously elaborate 
evaluations. The kids will tell you right away who the best 
teachers are. So, thank you for confirming something that I 
have said.
    Ms. Banta, would you tell us what you think is the role of 
the private sector in providing alternative certification 
routes for teachers and strengthening the teacher profession? 
Say a little bit more about the unique contributions that the 
private sector can make in getting the best teachers into the 
classroom.
    Ms. Banta. Well, in my testimony I talked about the IBM 
program, and I thank you for the question. I am very serious 
that we need help getting more companies to use the model. 
IBM's program is small. If 25 large other companies emulated 
it, adapted it to their specific needs, we would get a lot--
many more STEM teachers into the classroom.
    We would also be saying to our employees teaching is a very 
important profession. We value teachers because they are the 
stewards of the next generation. So, creating models is 
important. Sharing what you know, helping the profession to be 
more fluid. Points I am probably repeating a little bit, but I 
think those are roles that the private sector can play.
    Mrs. Foxx. Thank you, Mr. Chairman. I yield back.
    Chairman Hunter. I thank the gentlelady.
    And for the last question, Mrs. Biggert is recognized for 5 
minutes.
    Mrs. Biggert. Thank you, Mr. Chairman.
    Talking about education again and how important it is, you 
know when we had Sputnik, the Soviet Sputnik and we went after 
science because we are a very competitive nation I think. 
What--let us say somebody came to you and said what can we do 
to create an environment like Sputnik or a Nation at Risk to 
really focus all our attention on education? What kind of 
program would you want to do? I mean, how can we get back 
this--this is what we are going to work on?
    Mr. Andrew. So, I will tell you just a little bit about our 
high school because it is inspired in part based on the 
experience I had teaching in Korea.
    In Korea teachers are thought of as nation builders. This 
is the country with some of the highest performing public 
schools and is a country that just 50, 60 years ago came out of 
poverty and colonialism and has turned that around through high 
quality public schools. But the foundations were based in 
respect for teachers and high--holding them at the highest 
esteem.
    The idea that effort equals success and that the harder our 
scholars and teachers work the more successful they will be. 
And that education is the highest value. And that if you have 
discretionary income, if you are committed to this idea that 
you will be able to in fact take education at the highest value 
for whatever you may have.
    And so we have tried to imbue those values into our school 
in New York and had great results. And I think that what we are 
seeing right now across the world is that the respect for 
teachers as a profession at some of the highest performing 
countries is much higher. So, we need to really elevate the 
profession to the incredible people--and honor the incredible 
people that have chosen this line of work.
    Mrs. Biggert. And how do you do that, besides emulate 
everything that you are doing in Brooklyn.
    Mr. Andrew. No, we are not perfect by any means. We have a 
long way to go.
    And the ideas that I talk about, you know when you think 
about in Korea they are nation builders, we talk about being 
Democracy builders. And so we actually create an organization 
for our parents to become Democracy builders and to help to 
organize our parents so that they can become more engaged in 
our civic life and in our Democracy.
    But at the end of the day, the quality of our public 
schools, and especially our lowest performing public schools, 
by raising the bar and lowering the barriers to the highest 
quality public schools, that is going to change the trajectory. 
When Jamie and Omar and Michael finish college and go out to 
change the world, they will be the next generation that fights 
hard in the same way that the Sputnik generation did.
    Mrs. Biggert. Thank you. Anyone else?
    Ms. Brown. You know one of the things that is not discussed 
a lot is that in South Korea, in Finland, in Singapore, they 
are much more selective about who they let into teaching. And 
so--and those teachers get very good preparation and very good 
acculturation and become a part of the mission of nation 
building.
    As you said, we need to do--I believe we need to start 
holding our preparation programs accountable for the products 
they produce. When you start doing that, they will start being 
more selective about who they let in.
    Whether it is the traditional programs or alternative 
certification programs, they are very--TNTP, you heard her 
describe is very selective about who they let into the program. 
Drew is very selective about who you hire. And we just--we have 
just sort of been--you say if you want to be a teacher you can 
be a teacher in this country, no matter what your skill or 
training. And these other countries are not like that.
    Mrs. Biggert. Well, is not it true, though that and I know 
that I think Mr. Ayers you talked about the fact that it is not 
all about money. But when you have got somebody, let us say an 
engineer who comes out of college, probably got debt. And maybe 
you think well teaching would be really good. But offered a job 
at a lot higher--in another--in a private sector than teaching; 
makes it really hard, does not it, to get you know what we 
would call the best and the brightest.
    Unless, unless there was you know this esteem that teachers 
were held in. And I think that that is something that we really 
need to change because they are the ones that are going to 
solve these problems.
    Ms. Brown. But beginning salaries varies very widely across 
the country. In many urban and fairly affluent suburban 
districts starting salaries are quite good. Maybe not quite 
competitive with engineers, but for someone who is serious 
about teaching and in places like D.C. and some other places 
you can move up the career--up the salary chain much faster 
than you can in other places where salaries move in lockstep 
every few--based on years of service and credentials.
    The irony is if you look at some of the high performing 
states in other parts of the country; say the Plains, say 
Vermont, say New Hampshire, say Maine. Ironically, teachers are 
not paid as well in those places. But they are probably held in 
high esteem. And you have--you do not have problems getting 
teachers in the Plains states. It is a culture. There is 
respect for teaching and learning.
    It is hard to generalize about this. And I think it is very 
important that we set up incentives for systems to change where 
they are not getting effective results.
    Mrs. Biggert. Thank you. I yield back.
    Chairman Hunter. Thank the gentlelady.
    Ms. Woolsey is recognized for the really last, last 
question.
    Ms. Woolsey. All right. Thank you. And it will be short.
    Mr. Andrews--Mr. Andrew, Jamie, Omar and Michael--are 
they--is Jamie a female?
    Mr. Andrew. She is.
    Ms. Woolsey. I want to thank you for including such a--are 
those the three you are referring to right there? Well, you are 
beautiful. Thank you for being so inclusive. And you have set 
an example for exactly how we need to talk about the young 
people of our future.
    And because you are the future of this nation. And thank 
you very much for what you are doing.
    Thank you, Mr. Chairman.
    Chairman Hunter. Now I would like to recognize Mrs. Foxx 
for 30 seconds. Once you open the door.
    Mrs. Foxx. This is not a question, but it is very relevant 
to what we are talking about today. I have had a program in my 
office since my second year in Congress that I call the Teacher 
in Congress program. And I invite teachers from across my 
district to apply to come to Washington for 10 days. We pay 
them a very modest stipend and they shadow me and attend 
functions here, spend some time at the Library of Congress, the 
Historian's Office.
    And my teacher in Congress, one of my teachers in Congress 
is here today, Tommy McKnight from Alleghany County. He is from 
my smallest county, Mr. Chairman. But I have to say, that 
county and the teachers there do so many extra things with 
their students. It is absolutely amazing the energy that exists 
in that little county and the effort that they put into working 
with their students and giving them lots of opportunities.
    And Tommy is the first one from Alleghany County to be--I 
have 12 counties--to be in the program. And I just wanted to 
recognize him. He told me after spending the day with me 
yesterday he had no trouble going to sleep last night. But he 
has been here for the hearing today, and I am delighted we had 
a hearing he could participate in and hear these great 
witnesses.
    Thank you, Mr. Chairman.
    Chairman Hunter. Thank the gentlelady.
    I would like to thank the whole panel. This has been an 
extremely interesting discussion. I think it was beneficial for 
everybody.
    Mr. Andrew, we could close here. You know we always ask 
kids--I ask my kids and kids come into the office and they say 
what would you like to tell your congressman. I do not think 
anybody here is your congressman in particular, but if you want 
to come up and tell us what you think. We would like to close 
with who this matters.
    Ms. McCoy. You want me to say what I think on the topic?
    Chairman Hunter. Yes.
    Ms. McCoy. Okay. Sorry.
    Well, hi. My name is Jamie and I am an upcoming senior, and 
I feel that when--I feel that the message that Mr. Andrew is 
trying to present is not that certified teachers are not 
capable of teaching well, but there are also alternative 
certified teachers and uncertified teachers who are also 
teachers who can teach well--can also teach well.
    And an example would be our chemistry teacher, Ms. Hurlihy, 
who is from London and I love her accent by the way. But she is 
a real--a rigorous teacher. She is a teacher that she brings 
passion because she is so passionate about chemistry and she 
wanted to study chemistry more in depth that she brought that 
into the classroom. It almost makes you feel like a chemist 
when she is teaching you.
    And this is an uncertified teacher. And who knows that if I 
was in public school and I would not be able to have such a 
wonderful uncertified teacher teaching me. I do not think I 
would have been as successful as I was in chemistry.
    I did not imagine myself understanding chemistry the way I 
did and visioning atoms and distilling water and realizing that 
water--that salt cannot--salt is soluble. Like things like 
that. And I think that would be beneficial you know if other 
schools were able to have such like autonomy that Mr. Andrew 
has.
    Chairman Hunter. Thank you, Jamie. And you have already 
passed my level of chemistry. I did not know that salt was 
soluble.
    Omar, Michael, anything you would like to add?
    Mr. Cummings. I--sorry. My name is Michael Cummings. I am 
also an upcoming senior at Democracy Prep Charter School. And I 
feel the same way.
    I think that autonomy is something very important in 
schools. And I think that if you have--if teachers, or if 
principals I guess from this discussion, if principals were 
able to have the autonomy to choose what type of teacher that 
they allow to teach in their building and teach their students, 
then we could have--then students would be able to benefit from 
that.
    But as well teachers who were not able to teach before 
would be able to teach and they could bring like so much more 
to the classroom because someone who, like for instance, Ms. 
Hurlihy or my Korean teacher, Ms. Lee, she is someone who went 
to school to be a librarian and instead she ended up teaching 
me Korean for the last 2 years. And so now I will know Korean 
from someone who otherwise if she was not able to teach she 
would have been a librarian and I would not know Korean.
    So, I mean she is given an opportunity. I am given an 
opportunity. And I think it is just beneficial to everyone. And 
I cannot see why not. So.
    Chairman Hunter. Very well said.
    Mr. Cummings. Thank you.
    Mr. Taveras. Well, my name is Omar, first.
    Chairman Hunter. Omar. Okay.
    Mr. Taveras. Yes. Well, I believe that uncertified 
teachers--I think most of them are pretty good because they are 
like mostly passionate in what they are doing. And that kind of 
like motivates kids like me to do better in school because when 
you see somebody that loves something so much it makes you want 
to like it too in a way.
    But, what was I going to say?
    Chairman Hunter. Sounds good to me. Sometimes shorter is 
better.
    With that, I would like to recognize Mr. Kildee for any 
closing remarks he may have.
    Mr. Kildee. Well, I really cannot top that. That was, Mr. 
Chairman, a very novel and very effective way I think to close 
the hearing.
    You are what education is all about, which is why we work 
at it. And I just--I just cannot top that. Thanks a lot. Thank 
you very, very much.
    Chairman Hunter. And there being no further business, the 
subcommittee stands adjourned.
    [Questions submitted for the record and their responses 
follow:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                ------                                


      Mr. Andrew's Response to Questions Submitted for the Record

    What is the biggest obstacle states and school districts face in 
addressing teacher shortages and other related issues? How do 
alternative certification routes help, and are these teachers making a 
difference in the classroom?

    The single largest challenge we face as a network, and that I face 
as a Superintendent, is finding, training, and sustaining amazing 
teachers and leaders. The success of great schools like Democracy Prep 
is mostly a function of which adults they have in their buildings, not 
which kids they have in their buildings.
    Unfortunately, most districts, states and the federal government 
continue to use a course-based certification model with a lock-step 
seniority pay system that deters the best and the brightest teachers 
from entering--and remaining in--the profession. The HQT standard 
places the illogical restriction on the talent pool that my principals 
are permitted to access and unnecessarily hamstrings our search for the 
amazing teachers that our students need. Under current HQT policy, it 
is a remarkable indicator that I could not likely hire any members of 
this committee to teach history or civics at Democracy Prep even with 
the benefit of the exemption of the New York State Charter Law. Because 
I have already reached my 30% threshold of ``uncertified'' teachers, I 
cannot even use the HOUSSE provisions under HQT to make you eligible to 
teach at Democracy Prep.
    The issue is not about traditional district schools versus public 
charter schools. Ensuring that all principals, Local Education 
Authorities (LEAs), State Education Authorities (SEAs) have the laws, 
regulations, and tools in place they need to recruit the best and the 
brightest teachers regardless of their route to certification is a 
public education national challenge for all our schools. This is true 
regardless of whether they are traditional district, magnet, or public 
charter schools. However, in most states the situation is even more 
dire for traditional school districts, which aren't afforded the same 
flexibility as public charter districts like mine. Traditional 
districts are forced to turn away thousands of great candidates for 
teaching that charter districts are able to interview and hire. When we 
lose high quality potential teachers from the applicant pool, the 
people we hurt most of all are our children most in need of an 
excellent teacher.
    At Democracy Prep, for approximately 100 teaching positions 
available in our district last year, we received nearly 10,000 
applicants. If we were to have used a strict HQT or certification 
standard, we would have had to eliminate nearly two-thirds of those 
applicants upon initial screening. Instead, we reviewed all of the 
applicants for the best potential fit through a rigorous screening 
process that includes a resume review, a phone interview, an in-person 
interview, a sample lesson, a feedback loop, a second sample lesson 
when necessary, and reference checks. Then and only then, would we 
begin to discuss with a candidate their certification status and HQT.
    If high-performing Local Education Authority (LEAs) were empowered 
to create our own residency-based ``certification'' programs based on 
outcomes, not inputs, I believe that we could dramatically accelerate 
the achievement-gap closing work of Democracy Prep to attract more and 
stronger candidates to the field of education. Our professional 
development program includes more than 300 hours each year of direct 
in-service training for all teachers, targeted to their specific areas 
of need. This approach would be far more valuable and effective in 
credentialing teachers than an online master's degree that serves the 
current HQT route for many teachers each year. Approved school-based 
certification programs based out of the LEA would have a major impact 
on our ability to recruit, support, and retain great teachers for the 
profession.

    Is there any evidence that teachers who have gone through 
alternative certification routes are less effective in producing 
positive outcomes for all students, including students with 
disabilities, English Learners, or other students with unique needs? 
Conversely, is there any evidence that teachers who have gone through 
traditional certification routes are more effective educators?

    As a public charter school district, we have been fortunate enough 
to have some flexibility from the Highly Qualified Teacher (HQT) rules 
under New York State law. State law has relinquished to us the ability 
to create our own recruitment, compensation, hiring, evaluation, and 
retention systems at Democracy Prep.
    In spite of the high percentage of teachers at Democracy Prep who 
have no teaching certification, or have received certification through 
alternative pathways, Democracy Prep Public Schools operate the highest 
growth middle schools in the city, and our first turnaround elementary 
school, Harlem Prep, was recognized for having the single highest 
growth of any school in literacy in the entire State of New York, and 
the highest combined math and literacy proficiency growth in New York 
City. At the high school level, our scholars consistently outperform 
the wealthiest students in New York State, Westchester County, on the 
high-stakes Regents examinations.
    Indeed, Harlem Prep Charter School has become one of the single 
most impressive and exciting indicators of what is possible for 
America's lowest performing public schools. In less then one year, the 
teachers and leaders at Harlem Prep accomplished a challenge that many 
believed to be insurmountable for low-performing students: substantial 
turnaround in just 10 months. New York State ELA and Math Exam results 
released recently show Harlem Prep's students improving tremendously. 
Harlem Day was the lowest performing school in Harlem, and yet last 
year overall proficiency scores by 34% in ELA and 28% in math and 
beating the district in every subject and grade level tested.
    According to research conducted by Dr. Roland Fryer, Director of 
the Education Innovation Laboratory (EdLabs) at Harvard University, the 
percentage of teachers who have obtained a Master's Degree or higher 
has increased from 27% in 1971 to 61% in 2006. This increase is largely 
due to local state and federal policy that places inordinate emphasis 
on such credentialing. One might expect that this increase in the 
relative education level of each teacher would translate to a 
commensurate increase in student achievement. And yet, as we all well 
know, student achievement scores in reading remained stagnant for 9, 
13, and 17 year-old students across that entire timespan. In fact, a 
multi-year study of New York City charter schools conducted by EdLabs 
revealed teacher certification to play a statistically negligible role 
in determining student performance.
    Our own experience at Democracy Prep has confirmed this data. In 
fact, we believe that traditional HQT designation and certification may 
in fact be inversely related with teacher quality on the whole. Last 
year across our district, only 18% of teachers possessed traditional 
certification. 52% were certified through a non-traditional route, such 
as TFA, TNTP, or the MATCH Teacher Residency, and 30% were wholly 
uncertified. Despite this, each of our schools continued to post 
dramatic gains in student proficiency levels across all grade levels 
and all subjects. Quite clearly, our students did not suffer on account 
of their teachers lacking the traditional HQT credentials that 
currently guide federal policy.
                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                ------                                


      Ms. Mulhern's Response to Questions Submitted for the Record

    Is there any evidence that teachers who have gone through 
alternative certification routes are less effective in producing 
outcomes for all students, including students with disabilities, 
English Learners, or other students with unique needs? Conversely, is 
there any evidence that teachers who have gone through traditional 
certification routes are more effective educators?

    Rigorous research proves that teachers certified through alternate 
routes are as effective as traditionally certified teachers.
    <bullet> A 2009 nationwide, randomized study commissioned by the 
U.S. Department of Education found that, ``There was no statistically 
significant difference in performance between students of alternative 
route to certification teachers and those of traditional route to 
certification teachers'' (Constantine et al., 2009).
    <bullet> A 2005 comprehensive study on teacher education research 
published by the American Educational Research Association found that, 
``there were no differences between alternatively and traditionally 
certified teachers in terms of teacher efficacy or in teaching 
competence as measured by classroom observations'' (Cochran-Smith and 
Zeichner, 2005).
    <bullet> A 2006 study examining the effectiveness of teachers 
entering New York City classrooms found that, ``On average, the 
certification status of a teacher has at most small impacts on student 
test performance,'' and suggests that ``classroom performance during 
the first two years, rather than certification status, is a more 
reliable indicator of a teacher's future effectiveness.'' (Kane et al., 
2006).
    The best alternate route to certification programs are producing 
teachers who are more effective than other teachers.
    <bullet> A 2009 analysis that compared educational outcomes in 
states with ``genuine'' alternative certification against those that 
have it in name only found that, ``Students attending schools in states 
with genuine alternative certification gained more on the National 
Assessment of Educational Progress (NAEP) between 2003 and 2007 than 
did students in the other states. The finding holds, even when one 
adjusts for changes in the ethnic composition, free-lunch eligibility, 
class size, and education expenditures for each state'' (Nadler and 
Peterson, 2009).
    <bullet> A 2010 study by the state of Louisiana found that new 
teachers trained by TNTP's alternative certification program outperform 
both new and experienced teachers in raising student achievement in 4 
of 5 subjects studied. Over the past 3 years, the program has earned 
more top ratings for effectiveness than any other program in the state, 
including university providers (Gansle, Noell, Knox, and Schafer, 
2010).
    <bullet> According to the Tennessee State Board of Education's 2010 
report card, Teach For America trains the most effective teachers of 
any of Tennessee's 42 colleges of education and teacher preparation 
providers. TFA teachers achieved the highest student scores among new 
teachers in reading, science and social studies.

    What is the biggest obstacle states and school districts face in 
addressing teacher shortages and other related issues? How do 
alternative certification routes help, and are these teachers making a 
difference in the classroom?

    When school districts face teacher shortages, several obstacles 
must be addressed to successfully recruit teachers. First, 
certification requirements can deter otherwise qualified and eager 
candidates from entering the field. For example, every year only 14,000 
math majors graduate from college but more than 120,000 engineering and 
computer science majors complete their degrees. Yet, in many states, an 
experienced engineer without a math major cannot teach 7th grade 
geometry (National Center for Education Statistics). These barriers to 
entry limit the pool of potential teachers in our highest need 
subjects. In addition, high certification costs can also discourage 
applicants who are interested in changing fields but are concerned by 
the costs of licensure. Finally, there is insufficient focus on the 
effectiveness of teachers produced by preparation programs.
    Decades of research show that nothing schools can do for students 
matters more than giving them great teachers. And the difference 
between a great teacher and an ineffective teacher can be up to a full 
year's worth of learning for students. Research shows that highly 
effective teachers have a lifelong impact on students, boosting college 
attendance and future earnings (Chetty, Friedman and Rockoff, 2012).
    NCLB made a well-intentioned effort to ensure that every child was 
taught by a ``highly qualified'' teacher. But ``qualified'' does not 
always equal ``effective.'' The true measure of a teacher is her 
ability to advance student learning. To promote real equality in 
education, policymakers should shift focus to accurately measuring and 
responding strategically to differences in teacher effectiveness. Among 
other things, this means:
    <bullet> Replacing the current ``Highly Qualified Teacher'' 
definition with a new definition of an ``Effective Teacher'' that is 
based primarily in terms of the teacher's impact on student academic 
growth; require that states increase the percentage of effective 
teachers and decrease the percentage of ineffective teachers in Title I 
schools.
    <bullet> Supporting the development and implementation of 
evaluation systems that produce legitimate information about teacher 
effectiveness based on multiple measures of performance including 
student academic growth, and require states to meaningfully 
differentiate teachers according to effectiveness.
    <bullet> Encouraging states to tie evaluation data to critical 
decisions such as how teachers are hired, developed, paid and retained.
    <bullet> Encouraging states to assess the effectiveness of their 
teacher preparation programs, including how their new teachers perform 
once in the classroom.
    Currently, alternate route programs play a critical role in 
providing all students with effective teachers. All 50 states and the 
District of Columbia have at least some type of alternate route to 
teacher certification. Sixty thousand teachers were enrolled in 
alternative certification programs in 2010, and nationally about four 
out of 10 new public school teachers hired since 2005 came through 
alternative teacher-preparation programs (Feistritzer, 2011). In many 
states, alternative routes are providing a critical mass of teachers, 
including:
    <bullet> Florida and Texas hire more than 50% of their teachers 
from alternative paths each year
    <bullet> California, Georgia and New Jersey hire more than 40% of 
their teachers are from alternative paths.
    <bullet> Mississippi hires more than one third of teachers from 
alternative pathways
    Alternatively certified teachers are meeting a critical need in 
schools across the country.
    <bullet> They are an increasingly important source of new teacher 
talent. Twenty to thirty percent of all new teachers hired annually are 
trained by alternate route programs (National Research Council, 2010).
    <bullet> They bring effective teachers into the classroom who would 
have otherwise never considered the profession. 54% of people who came 
to teaching from another profession say they would not have become 
teachers if an alternate route had not been available. (Feistritzer, 
2005)
    <bullet> They produce significant numbers of teachers for math and 
science classrooms, where schools face chronic shortages of teachers. 
In Texas, for example, nearly 40% of individuals obtaining secondary 
mathematics certification and about 55% of individuals obtaining 
secondary science certification came through alternative certification 
programs in 2007. In contrast, about 20% in math and 8% in science came 
through traditional programs (Fuller, 2009).
    <bullet> They increase the diversity of the teacher workforce. In 
2004, only 14.1 percent of the nation's teachers were African American 
or Hispanic. (Nadler and Peterson 2009) Approximately 32 percent of 
alternate route teachers are non-White, compared to just 11 percent of 
the overall teaching population (Feistritzer, 2005).
    <bullet> They are helping cities like New York improve educational 
equity. A 2007 study by the Urban Institute found that alternative 
certification programs serving New York City--in particular TFA and the 
NYC Teaching Fellows Program--were responsible for a ``remarkable 
narrowing'' of the gap in teacher qualifications between low- and high-
poverty schools between 2000 and 2005 (Boyd et al., 2007). As a result, 
more than 9,100 NYC Teaching Fellows--11 percent of New York's teaching 
force--work in the city's schools and account for more than half of New 
York's annual hires in math and special education.
                               references
    1. Boyd, D., Lankford, H., Loeb, S., Rockoff, J. and Wyckoff, J. 
(2007). ``The Narrowing Gap in Teacher Qualifications and its 
Implications for Student Achievement.'' National Center for Analysis of 
Longitudinal Data in Education Research (CALDER), The Urban Institute.
    2. Chetty, R., Friedman, J., & Rockoff, J. (2012). The Long-Term 
Impacts of Teachers: Teacher Value-Added and Student Outcomes in 
Adulthood. NBER Working Paper #17699. Cambridge, MA: National Bureau of 
Economic Research.
    3. Cochran-Smith, Marilyn, and Zeichner, Kenneth M. (2005). 
``Studying Teacher Education: The Report of the AERA Panel on Research 
and Teacher Education.'' American Educational Research Association. 
Routledge, Inc. (663).
    4. Constantine, Jill; Player, Daniel; Silva, Tim; Hallgren, 
Kristin; Grider, Mary; Deke, John; and Warne, Elizabeth (2009). ``An 
Evaluation of Teachers Trained Through Different Routes to 
Certification.'' Institute for Education Sciences, National Center for 
Education Evaluation and Regional Assistance, U.S. Department of 
Education.
    5. Feistritzer, C.E. (2005). ``Profile of Alternate Route 
Teachers.'' National Center for Education Information.
    6. Feistritzer, C. E. (2007). ``Alternative Teacher Certification: 
A State-by-State Analysis.'' National Center for Education Information.
    7. Feistritzer, C.E. (2011). ``Profile of Teachers in the U.S. 
2011.'' National Center for Education Information.
    8. Fuller, E. (2009). ``Secondary Mathematics and Science Teachers 
in Texas: Supply, Demand, and Quality.'' The University of Texas at 
Austin.
    9. Gansle, Kristin A., Noell, George H., Knox, R. Maria and 
Schafer, Michael J. (2010). ``Value Added Assessment of Teacher 
Preparation in Louisiana: 2005-2006 to 2008-2009.'' Louisiana State 
University.
    10. Kane, T.J., Rockoff, J.E., and Staiger, D.O. (2006). ``What 
Does Certification Tell Us About Teacher Effectiveness? Evidence from 
New York City.'' National Bureau of Economic Research, Working Paper 
12155.
    11. Nadler, Daniel and Peterson, Paul (2009). ``What Happens When 
States Have Genuine Alternative Certification?'' Education Next, Winter 
2009. Vol. 9, No. 1.
    12. National Center for Education Statistics, 2006.
    13. Noell, George H.; Porter, Bethany A.; Patt, R. Maria; and 
Dahir, Amanda (2008). Value Added Assessment of Teacher Preparation in 
Louisiana: 2007-2008 (Year 5). Department of Psychology, Louisiana 
State University.
    14. National Research Council, Committee on the Study of Teacher 
Preparation Programs in the United States (2010). ``Preparing Teachers: 
Building Evidence for Sound Policy.'' National Academy of Sciences.
    15. ``Report Card on the Effectiveness of Teacher Training 
Programs.'' Tennessee State Board of Education and Tennessee Higher 
Education Commission. December, 2010.
                                 ______
                                 
    [Whereupon, at 11:37 a.m., the subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
